<html>
<title> - S. 980--THE EMBASSY SECURITY AND PERSONNEL PROTECTION ACT OF 2013</title>
<body><pre>[Senate Hearing 113-200]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-200

                   S. 980--THE EMBASSY SECURITY AND 
                    PERSONNEL PROTECTION ACT OF 2013

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/






                  U.S. GOVERNMENT PRINTING OFFICE

86-864 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001























                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     3
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Miller, Hon. Bill A., Deputy Assistant Secretary of State for 
  High-Threat Posts, U.S. Department of State, Washington, DC....     7
    Prepared statement...........................................     8
Starr, Gregory B., Acting Assistant Secretary for Diplomatic 
  Security, Principal Deputy Assistant Secretary for Diplomatic 
  Security, and Director of the Diplomatic Security Service, U.S. 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     6
    Responses to questions submitted for the record by Senator 
      Bob Corker.................................................    28

                                 (iii)



 
   S. 980--THE EMBASSY SECURITY AND PERSONNEL PROTECTION ACT OF 2013

                              ----------                              


                         TUESDAY, JULY 16, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Murphy, Kaine, Corker, 
Flake, and Barrasso.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today, our real focus is ensuring the security of our 
missions abroad and the safety of our Foreign Service 
personnel. That has always been, and will remain, a priority of 
this committee.
    Having said that, I hope to have the support of my 
Republican colleagues for The Embassy Security Act I have 
introduced, named for Chris Stevens, Sean Smith, Tyrone Woods, 
and Glen Doherty, who gave their lives in service to the Nation 
in Benghazi on September the 11th. The lessons we have learned 
from the tragedies in Nairobi, Dar es Salaam, and Benghazi are 
emblematic of the broader issue we will increasingly face in 
the 21st century, and it will require our full, unequivocal, 
unwavering commitment to fully protect our embassies and those 
who serve this Nation abroad.
    We have studied what went wrong, we have looked back, and 
now it is time to look forward and do what needs to be done to 
prevent another tragedy in the future. After Benghazi, the ARB 
made 29 recommendations to State and to Congress. While we must 
do our part in overseeing State's implementation, we must also 
do our part to provide the resources and necessary 
authorizations to ensure full implementation. And we must make 
whatever investments are necessary to protect our embassies and 
our missions.
    Such investments are not an extravagance, they are not 
simply another budget item. We must strike the proper balance 
between sealing off vulnerabilities in high-threat areas and 
continuing to conduct vigorous and effective diplomacy that 
serves the national interests.
    The fact is, we can never have absolute security in an 
increasingly dangerous world unless we hermetically seal our 
diplomats in steel tanks. But, security alone is not our 
objective. At the end of the day, this is not an either/or 
choice. We need to address both the construction of new 
embassies that meet security needs, and we need to do what we 
can to ensure existing high-risk posts where we need our people 
to represent our interests and where new construction is not an 
option.
    The ARB stated it clearly, ``The solution requires a more 
serious and sustained commitment from Congress to support State 
Department needs, which, in total, constitute a small 
percentage both of the full national budget and that spent for 
national security. One overall conclusion in this report is 
that Congress must do its 
part to meet this challenge and provide necessary resources to 
the 
State Department to address security risks and meet mission 
imperatives.''
    The bill I have introduced as part of the solution, ``the 
serious and sustained commitment,'' it takes the lessons we 
have learned and turns them into action. As I said, total 
security is next to impossible. Our diplomats cannot encase 
themselves in stone fortresses and remain effective. And 
disengagement is clearly not an option. So, the solution must 
be multifaceted. It must include enhanced physical security 
around our embassies and ensure that our diplomats are equipped 
with the language skills and security training necessary to 
keep them safe when they come out from behind the embassy walls 
to do their jobs. It also requires us to ensure that the 
persons protecting our missions are not selected simply because 
they are the cheapest available force. Where conditions require 
enhanced security, this bill gives State additional flexibility 
to contract guard forces based on the best value rather than 
the lowest bidder.
    It also means holding people accountable. When an employee 
exhibits unsatisfactory leadership that has serious security 
consequences, the Secretary must have the ability to act. This 
bill gives the Secretary greater flexibility in disciplinary 
actions in the future. It authorizes funding for key items 
identified by the Accountability Review Board on Benghazi, 
including embassy security and construction, Arabic language 
training, construction of a Foreign Affairs Security Training 
Center to consolidate and expand security training operations 
for State Department personnel so that, instead of piecing 
together our training and facilities up and down the East 
Coast, we streamline them in a single facility that can provide 
comprehensive training to more people.
    And lastly, the bill requires detailed reports from the 
Department on its progress in implementing all of the 
recommendations made by the Accountability Review Board, and 
specifically requires the identification of, and reporting of, 
security at high-risk, high-threat facilities.
    At the end of the day, if we fail to act, if we fail to 
address these issues, there will be another incident. The 
responsibility is ours, and the failure to act will be ours, as 
well. This is a time for solutions. The safety of those who 
serve this Nation abroad is in our hands.
    With that, let me turn to my distinguished ranking 
colleague, who has worked with us to have this hearing, Senator 
Corker, for his opening statement.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Well, thank you, Mr. Chairman. And thank 
you for your efforts to focus on the issue of embassy security 
and, candidly, just the way you conduct our efforts here in 
Foreign Relations in a bipartisan way. It is much appreciated.
    And I want to thank the State Department for bringing forth 
the kind of witnesses that, you know, carry the weight on this 
issue that matters to all of us. So, thank you both for being 
here.
    We have a procedural issue that is occurring at 11 o'clock 
that is semi-important. I may be stepping in and out on the 
phone, here, before that vote. But, I want to thank you both 
for being here. I know our offices have been in contact with 
you.
    And let me just express a couple of concerns. I do not 
imagine there is anybody here that does not respect what our 
Foreign Service officers around the world do. And I think we 
all know, especially after what has happened in Libya, the 
threat that they are under. And we know those threats are 
taking place all over the world.
    I know that the State Department has requested funding for 
numbers of new facilities that take many, many years to build, 
and yet, at the same time, I know we have people today in 
Peshawar and Harat, you know, where we just came from, or at 
least generally came from, that are under a lot of duress now 
and, candidly, you know, have some security issues. So, I do 
hope, as we move along, we will figure out a way to balance 
between some of the longer term projects that, candidly, are 
taking place not under very serious threat with some of the 
short-term needs that we have.
    And I know there is also some focus on building a training 
facility, which I know is very expensive, and yet we are aware 
that maybe there are ways of doing that training in ways that 
do not require, you know, spending hundreds of millions of 
dollars to build it.
    So, I just hope we will move along in an appropriate way. 
And I certainly do not want to rehash the past. I think the 
chairman knows we have tried to move away from some of the 
things that have happened in the past. But, I would like for 
somebody to explain to me, at some point, this ARB that we did 
have. I know we have four employees that were involved in, you 
know, some reporting on the ARBs. They are still on paid leave, 
and nothing has occurred. And I would like, at some point, to 
understand how we bring closure to that issue.
    But, again, thank you both for being here. I thank you for 
your service to our country. And I hope, in a bipartisan way, 
we will move ahead in a way that certainly does the immediate 
things that are necessary to make sure that our Foreign Service 
officers are safe.
    But, thank you.
    The Chairman. Thank you.
    I am pleased to introduce Bill Miller, the Deputy Assistant 
Secretary of State for High-Threat Posts, a new position 
created post-Benghazi. And we also have with us Gregory Starr, 
the Acting Assistant Secretary for Diplomatic Security and 
Director of the Diplomatic Security Service. These two 
officials sit at the nexus of policy development and 
management, and we look forward to hearing their perspective on 
this legislation and on the best way to secure our embassies 
and keep our personnel as safe as possible.
    With our thanks for both of you being here, we will begin 
with your opening statements. Your full statements will be 
included in the record. We ask you to synthesize it in around 5 
minutes or so, so we can have members engage with you in a 
dialogue.

 STATEMENT OF GREGORY B. STARR, ACTING ASSISTANT SECRETARY FOR 
 DIPLOMATIC SECURITY, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR 
 DIPLOMATIC SECURITY, AND DIRECTOR OF THE DIPLOMATIC SECURITY 
       SERVICE, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Starr. Thank you, Mr. Chairman, Ranking Member Corker. 
I want to thank you for your invitation to appear here today to 
discuss the future of embassy and diplomatic security.
    We appreciate, and we share, your commitment to enhanced 
security, as evidenced in the recently introduced Chris 
Stevens, Sean Smith, Tyrone Woods, Glen Doherty Embassy 
Security and Personnel Protection Act of 2013.
    The attacks on the U.S. diplomatic facilities last 
September, and subsequent attacks this year, as well, against 
diplomatic facilities and personnel remind us every day that 
the world is a dangerous place for diplomacy. Unfortunately, 
this is nothing new. Being on the front lines of U.S. national 
security has always been inherently risky. However, we strive 
to mitigate this risk to the maximum extent possible.
    The fact remains that we will not, even with the most 
willing and capable government partners--as we have in many 
places around the world--we will not stop terrorists or 
extremists from attacking us in every instance. Rather, we must 
carefully balance this risk against the value of pursuing our 
national interests in these various countries. We have learned 
some very hard and painful lessons out of Benghazi. We are 
already acting on those lessons.
    The State Department carries on the business of the 
American Government and its people in 284 locations, many in 
challenging security environments where key U.S. national 
security interests are at stake. Every day, the Department 
works to protect our people and missions by constantly 
assessing threats and our security posture overseas.
    The Bureau of Diplomatic Security advances American 
interests and foreign policy by protecting people, property, 
and information. We do this by maintaining a security program 
that includes analyzing the threats, managing the security 
situation, and mitigating the risks.
    DS constantly researches, monitors, and analyzes threats 
against Americans, our diplomatic facilities, and U.S. 
diplomatic personnel. This information, along with trend 
analysis and case studies of political violence, terrorist 
acts, and crime, form the basis of the threat assessments that 
we use that are provided to Department senior managers to 
support the operational and policy decisionmaking process. From 
this analysis, we determine what additional security measures, 
whether they be short term or long term, should be taken to 
mitigate the potential threats against our diplomatic assets.
    From DS analysts in Washington, DC, monitoring the threats 
against our posts to our regional security officers abroad 
managing the security programs at these posts, we strive to 
provide the most secure platform for conducting American 
diplomacy. Building on the recommendations of the independent 
Benghazi Accountability Review Board, the interagency 
assessment teams that were sent out, and our own considerable 
experience and expertise, the Department is diligently working 
to improve the way we protect our diplomats, not only at our 
highest-threat posts, but at all of our facilities around the 
world.
    Thanks, in large part, to your generous support in 2013 and 
the continuing resolution, progress is well underway. Pursuant 
to the recommendations of the independent Benghazi ARB, we are 
training more U.S. Foreign Affairs community personnel to deal 
with high-threat and high-risk environments through our Foreign 
Affairs counterthreat course. We are expanding the duration of 
DS high-threat tactical training courses, and incorporating 
elements of that training into other DS courses so that, 
regardless of a diplomatic securities special agent assignment, 
we have a flexible cadre of agents trained to operate in 
varying security environments overseas.
    We are hiring 151 new security professionals this and next 
fiscal year--that is 151 total, not each year--many of whom 
will directly serve at, or provide support to, our high-threat, 
high-risk posts. We are also working very closely with the 
Department of Defense to expand the Marine Security Guard 
Program, as well as to enhance the availability of forces to 
respond, in extremis, to threatened U.S. personnel and 
facilities.
    We recently worked with DOD and the U.S. Marine Corps to 
elevate personal security--the security that we provide for our 
people overseas--as a primary mission of the Marine Corps 
security guards. Each of these efforts enhances the 
Department's ability to supplement, as necessary, the host 
government's measures in fulfilling its obligations under 
international law to protect U.S. diplomats and consular 
property and personnel. The increased security funds you have 
provided will also support our colleagues at the Bureau of 
Overseas Building Operations in providing facilities for 
additional Marine security guard detachments, as well as the 
construction of new facilities and security-upgrade projects at 
some of our most critical posts.
    The Bureau of Diplomatic Security realizes our work in 
securing our posts and protecting our people will never be 
done. We take great pride in our accomplishments. We apply the 
lessons learned, and we look forward to working with Congress 
on embassy security.
    I recognize that my opening remarks are brief, because I 
wanted to allow plenty of time for questions, to answer your 
specific questions. I will be glad to take those questions 
after you have heard from my colleague Bill Miller, and he will 
provide his remarks at this point.
    Thank you, Mr. Chairman. Thank you, Ranking Member Corker.
    [The prepared statement of Mr. Starr follows:]

                 Prepared Statement of Gregory B. Starr

    Good morning, Chairman Menendez, Ranking Member Corker, and 
distinguished committee members. Thank you for your invitation to 
appear here today to discuss the future of diplomatic security. We 
appreciate and share your commitment to enhanced embassy security as 
evidenced in the recently introduced ``Chris Stevens, Sean Smith, 
Tyrone Woods, and Glen Doherty Embassy Security and Personnel 
Protection Act of 2013.''
Today's Diplomacy
    The attacks on U.S. diplomatic facilities last September, and 
subsequent attacks this year against diplomatic facilities and 
personnel, remind us that the world remains a dangerous place for 
diplomacy. Unfortunately, this is nothing new. Being on the front lines 
of U.S. national security has always been inherently risky; however, we 
strive to mitigate this risk to the maximum extent possible. The fact 
remains that we will not, even with the most willing and capable 
governments as our partners, stop terrorists or extremists from 
attacking us in every instance. Rather, we must carefully balance this 
risk against the value of pursuing our national interests. We have 
learned some very hard and painful lessons in Benghazi. We are already 
acting on them.
    The State Department carries on the business of the American 
Government and its people at 284 locations, many in challenging 
security environments where key U.S. national security interests are at 
stake. Every day, the Department works to protect our people and 
missions by constantly assessing threats and our security posture. The 
Bureau of Diplomatic Security (DS) advances American interests and 
foreign policy by protecting people, property, and information. We do 
this by maintaining a security program that includes analyzing threats, 
managing the security situation, and mitigating risks.
Analyzing Threats
    DS constantly researches, monitors, and analyzes threats against 
Americans, our diplomatic facilities, and U.S. diplomatic personnel. 
This information, along with trend analyses and case studies of 
political violence, terrorist acts, and crime form the basis of threat 
assessments that are provided to Department senior managers to support 
operational and policy decisionmaking. From this analysis, we determine 
what additional security measures, short-term or long-term, should be 
taken to mitigate potential threats against our diplomatic assets.
Managing the Security Environment and Mitigating Threats
    From DS analysts in Washington, DC, monitoring threats against our 
posts to Regional Security Officers abroad managing security programs 
at those posts, we strive to provide the most secure platform for 
conducting American diplomacy. Building on the recommendations of the 
independent Benghazi Accountability Review Board, the Interagency 
Security Assessment Teams, and our own considerable experience and 
expertise, the Department is diligently working to improve the way we 
protect our diplomats not only at high-threat, high-risk posts but at 
all of our facilities worldwide.
    Thanks in large part to your generous support in the FY 2013 
Continuing Resolution, progress is well underway.
    Pursuant to the recommendations of the independent Benghazi ARB, DS 
plans to train more of the U.S. foreign affairs community to deal with 
high-risk environments through our Foreign Affairs Counter-Threat 
course. We are expanding the duration of the DS high-threat tactical 
training course and incorporating elements of that training into other 
DS courses so that regardless of a DS special agent's assignment, we 
have a flexible cadre of agents trained to operate in varying security 
environments.
    DS is hiring 151 new security professionals this and the next 
fiscal year, many of whom will directly serve at or provide support to 
our high-threat, high-risk posts. We are also working very closely with 
the Department of Defense (DOD) to expand the Marine Security Guard 
program, as well as to enhance the availability of forces to respond in 
extremis to threatened U.S. personnel and facilities. We recently 
worked with DOD and the U.S. Marine Corps to elevate personnel security 
as a primary mission of the Marine Security Guards. Each of these 
efforts enhances the Department's ability to supplement, as necessary, 
the host government's measures in fulfilling its obligations under 
international law to protect U.S. diplomatic and consular property and 
personnel.
    The increased security funds you have provided will also support 
our colleagues at the Bureau of Overseas Buildings Operations in 
providing facilities for additional Marine Security Guard Detachments, 
as well as the construction of new facilities and security upgrade 
projects at some of our most critical posts.
    The Bureau of Diplomatic Security realizes our work in securing our 
posts and protecting our people will never be done. We take great pride 
in our accomplishments, apply lessons learned, and look forward to 
working with Congress on embassy security. I will be glad to answer any 
questions you have.

STATEMENT OF HON. BILL A. MILLER, DEPUTY ASSISTANT SECRETARY OF 
    STATE FOR HIGH-THREAT POSTS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Miller. Good morning, Chairman Menendez, Ranking Member 
Corker, and distinguished committee members. Thank you also for 
your invitation to appear here today to discuss embassy 
security.
    I, too, appreciate and share your commitment to enhanced 
embassy security, as evidenced by your recently introduced 
Chris Stevens, Sean Smith, Tyrone Woods, and Glen Doherty 
Embassy Security and Personnel Protection Act of 2013.
    Threats and attacks against our diplomatic facilities and 
personnel have been a concern since the inception of embassy 
security, almost 100 years ago. To counter these global 
threats, the Office of the Chief Special Agent, the forerunner 
of Diplomatic Security, was formed in 1916. It was not, 
however, until 1985, in the aftermath of the Beirut bombings, 
that Diplomatic Security became a Bureau within the State 
Department.
    The DS mandate was solidified when Congress passed the 
Omnibus Diplomatic Security and Antiterrorism Act of 1986. At 
the same time, I was preparing to leave the Marine Corps, where 
I had my position as a Marine Corps officer, and I wanted to 
continue my service to the U.S. Government. And the mission 
envisioned of DS was part of a team--or, demonstrated the part 
of a team that I particularly wanted to join.
    In 1987, I became a DS special agent, and since then, I 
have devoted my 26-year career to fulfilling the mission of DS; 
that is, providing a safe and secure environment for the 
conduct of foreign policy.
    Early in my career, I was a part of the Secretary of 
State's protective detail. I have also served assignments in 
our Washington field office as the Chief of the Security and 
Law Enforcement Training Division, as the Chief of 
Counterintelligence Investigations, and as the Director of 
Contingency Operations. I have managed security programs as a 
regional security officer, also known as an RSO, in Iraq, 
Pakistan, Jerusalem, the Philippines, and in Egypt.
    To demonstrate the depth of my experience and that of a DS 
special agent, I would like to highlight a few of my 
accomplishments.
    As an RSO, I dealt daily with the possible terrorist acts 
that impacted the lives of Americans, to include the kidnapping 
of American missionaries in the Philippines, as well as 
participating in the capture of Ramzi Yousef, one of the main 
perpetrators of the 1993 World Trade Center bombing.
    When the United States returned to Iraq in 2003, I was 
asked to serve as the first RSO and to manage the volatile 
security environment as we reestablished our diplomatic 
presence. Most recently overseas, I was the RSO in Cairo, 
Egypt, during the Arab Spring. It is an experience that informs 
my decisionmaking as I work to ensure adequate security 
resources during the ongoing transition in Egypt.
    After the September 2012 attacks on our facilities in 
Libya, Yemen, Tunisia, and Egypt and Sudan, the Department 
reviewed its security posture and created my position, the 
Diplomatic Security Deputy Assistant Secretary of State for 
High-Threat Posts, also known as HTP, along with providing a 
staff of security professionals to support high-threat, high-
risk posts. The Department assessed our diplomatic missions 
worldwide and weighed criteria to determine which posts are 
designated as high-threat, high-risk. And there are now 27 
posts which fall under this designation. This designation is 
not a static process, and the list will be reviewed annually, 
at a bare minimum, and more frequently, when needed. As 
emergent conditions substantially change, for better or for 
worst, at any post worldwide, high-threat, high-risk 
designations will shift, and missions will be added or deleted 
from this category. The high-threat protection directorate that 
I lead oversees the security operations in these high-threat, 
high-risk posts around 
the world. We coordinate strategic and operational planning and 
drive innovation across the broad spectrum of DS missions and 
responsibilities. We continue to work closely, also, with the 
regional bureaus to ensure that everyone has visibility of the 
security threats at our posts.
    As the Deputy Assistant Secretary for HTP, I am responsible 

for evaluating, managing, and mitigating the security threats, 
as well as directing resource requirements at high-threat 
diplomatic missions. I closely follow developments, continually 
assess our security posture, and take all possible steps to 
mitigate threats and vulnerabilities.
    While the Department has created a position for high-
threat, high-risk post designations, we must continue to focus 
on embassy security worldwide. I coordinate closely with my 
colleagues in Diplomatic Security throughout the Department and 
the interagency to ensure that the threats and risk-mitigation 
strategies are shared globally. As you have said, we can never 
truly eliminate all the risks facing our dedicated personnel 
working overseas who advance U.S. interests. However, as the 
Department has said, we place the highest priority on the 
security of our personnel and will continue to take the steps 
necessary, which, in some instances, include extraordinary 
measures to provide for their safety.
    I would like to thank you again for the opportunity to 
appear before the committee today and discuss the future of our 
embassy security. I'm available to answer any of your 
questions.
    [The prepared statement of Mr. Miller follows:]

                   Prepared Statement of Bill Miller

    Good morning, Chairman Menendez, Ranking Member Corker, and 
distinguished committee members. Thank you for your invitation to 
appear here today to discuss embassy security. We appreciate and share 
your commitment to enhanced embassy security, as evidenced by the 
recently introduced ``Chris Stevens, Sean Smith, Tyrone Woods, and Glen 
Doherty Embassy Security and Personnel Protection Act of 2013.''
    Threats and attacks against our diplomatic facilities and personnel 
have been a concern since the inception of embassy security almost 100 
years ago. To counter these global threats, the Office of the Chief 
Special Agent, the forerunner of diplomatic security was formed in 
1916. It was not until 1985, in the aftermath of the Beirut bombings, 
that Diplomatic Security (DS) became a Bureau within the State 
Department. The DS mandate was solidified when Congress passed the 
Omnibus Diplomatic Security and Antiterrorism Act of 1986. When I was 
preparing to leave my position as a Marine Corps officer and wanted to 
continue my service to the U.S. Government, the mission and vision of 
DS was a team that I wanted to join. In 1987, I became a DS Special 
Agent. Since then, I have devoted my 25-year career to fulfilling the 
mission of DS: providing a safe and secure environment for the conduct 
of foreign policy.
    Early in my career, I was part of the Secretary of State's 
protective detail. I have also served in our Washington field office, 
as the Chief of Security Training, Chief of Counterintelligence 
Investigations, and Director of Contingency Operations. I have managed 
security programs as a Regional Security Officer, also known as an RSO, 
in Iraq, Pakistan, Jerusalem, the Philippines, and Egypt. To 
demonstrate the depth of my experience and that of a DS Special Agent, 
I would like to highlight a few of my accomplishments. As an RSO, I 
dealt daily with possible terrorist acts that impacted the lives of 
Americans, including the kidnapping of Americans in the Philippines, as 
well as the capture of Ramzi Yousef, one of the main perpetrators of 
the 1993 World Trade Center bombing. When the United States returned to 
Iraq in 2003, I was asked to serve as the first RSO to manage the 
volatile security environment as we reestablished our diplomatic 
presence. Most recently overseas, I was the RSO in Egypt during the 
Arab Spring; an experience that informs my decisionmaking as I work to 
ensure adequate security resources during the ongoing transition in 
Egypt.
    After the September 2012 attacks on our facilities in Libya, Yemen, 
Tunisia, Sudan, and Egypt, the Department reviewed its security posture 
and created my position, the Diplomatic Security Deputy Assistant 
Secretary of High Threat Posts, also known as HTP, along with a staff 
of security professional to support high-threat, high-risk posts. The 
Department assessed our diplomatic missions worldwide and weighed 
criteria to determine which posts are designated as high-threat, high-
risk--there are now 27 posts which fall under this designation. This 
designation is not a static process and the list will be reviewed 
annually, at a minimum, and more frequently as needed. As emergent 
conditions substantially change, for better or for worse, at any post 
worldwide, high-threat, high-risk designations will shift, and missions 
will be added or deleted from this category. The HTP Directorate I 
oversee will lead the security operations in these high-threat, high-
risk posts around the world, coordinate strategic and operational 
planning, and drive innovation across the broad spectrum of DS missions 
and responsibilities. We continue to work closely with the Regional 
Bureaus to ensure that everyone has visibility of the security threats 
at our posts.
    As the Deputy Assistant Secretary for HTP, I am responsible for 
evaluating, managing, and mitigating the security threats, as well as 
directing resource requirements at high-threat diplomatic missions. I 
closely follow developments, continually assess our security posture, 
and take all possible steps to mitigate threats and vulnerabilities. 
While the Department has created a position for high-threat post 
designations, we must continue to focus on embassy security worldwide. 
I coordinate closely with my colleagues in DS, the Department, and the 
interagency to ensure the threats and risk mitigation strategies are 
shared globally.
    We can never truly eliminate all the risks facing our dedicated 
personnel working overseas to advance U.S. interests. However, as the 
Department has said, we place the highest priority on the security of 
our personnel and will continue to take 
steps, which in some instances includes extraordinary measures, to 
provide for their safety.
    Thank you again for the opportunity to appear before the committee 
today and to discuss the future of embassy security. I am available to 
answer any questions you may have.

    The Chairman. Well, thank you both for your testimony. And 
let me start the first round of questions, here.
    You know, I have heard from some of my colleagues that 
suggest that what we need is just greater oversight at State, 
but we do not need any money. The question is, Can you, under 
the existing budget, with no additional revenues, protect, 
throughout the world, and particularly at high-risk posts, the 
lives of those who are assigned to the diplomatic corps 
representing us worldwide?
    Mr. Starr. Senator, thank you for going right to the heart 
of what is really important to us, in many ways: giving us the 
resources to address this. Two parts to this answer.
    The 2013 Continuing Resolution level of funding, plus the 
generosity of Congress under the increased security proposal, I 
believe gives us the proper level of resources that we can 
utilize effectively now, this year and our 2014 budget request, 
which essentially rolls both of those pots of money into our 
request, as well. I believe that that amount of money gives us 
the ability to move forward and do the things that we need to 
do.
    The second part of that question is, of course, as all of 
us have mentioned, no, we cannot guarantee that we are going to 
protect every single person, because we are working in highly, 
highly dangerous areas, in many countries. But, that level of 
funding, that level of resources, combined with the types of 
actions that we are taking, gives us a level of confidence that 
we have adequate and appropriate resources to address the types 
of threats that we need to address.
    Now, it does not mean that we are going to have equivalent 
levels of security across the board. We are going to prioritize 
where we put our resources--manpower, equipment, technical 
equipment, where we build the new embassies--so we will 
obviously have places where we have lower levels of resources.
    The Chairman. Right. So, let me----
    Mr. Starr. But, we will do it to the best we can, sir.
    The Chairman. What I am trying to get is, is that, if I 
zeroed out your account in the next year's budget, what would 
you do?
    Mr. Starr. If----
    The Chairman. If I zeroed out--if you did not roll over 
what, as you described, the largesse of the Congress, what 
would you do?
    Mr. Starr. We would prioritize very heavily----
    The Chairman. But, you are not going to be able to secure 
people across the globe----
    Mr. Starr. No, sir.
    The Chairman [continuing]. Understanding the context of 
security.
    Secondly, if I cut it in half, what would you do?
    Mr. Starr. I think that would cause a reassessment of where 
we could actually put people, sir. I do not think we would be 
able to stay in the highest-threat locations, where the U.S. 
national interests are most important.
    The Chairman. So, there is--so, when the ARB identified--it 
is number 10 of their many recommendations--identified $2.2 
billion as an appropriate funding level for the Capital 
Security Cost-Sharing Program, which the President's FY14 
budget requested this amount, it was not just a number from the 
sky, it was based upon an analysis of the Accountability Review 
Board about what your challenges are, what your needs are, and 
what you can realistically administer over a period of time. Is 
that a fair statement?
    Mr. Starr. Yes, sir, that is very fair.
    The Chairman. And so from a security standpoint, do you 
have a sense of how many new facilities are needed, 
particularly in high-threat, high-risk locations?
    Mr. Starr. Sir, within the high-threat list of 27 
countries, we have a certain amount of them that have gotten 
new facilities, but there still are about 15 of those 
facilities that we do not have 
the proper level of what we call ``post-Inman buildings.'' 
There 
are other places around the world where we do not have those 
facilities.
    Going back to about 2000, after the 1998 bombings in Dar es 
Salaam and Nairobi, we made a calculation, which we stand to, 
to this day, which is that we needed approximately 175 new 
facilities around the world to be brought up to the highest 
level of security standards. In the past 13 years, we have 
constructed about 80 to 90 of those facilities. From 1988 to 
1992, under the Inman era, we constructed 22 of those 
facilities. So, we are at about the 110 mark out of 175 
facilities that we would like to continue working diligently to 
replace and put new embassies that meet blast standards, have 
their proper level of standoff, as mandated by Congress, have 
the antiram protection, and have the level of protection that 
we seek for our people overseas.
    The Chairman. Let me ask you, What are the factors that 
would require the construction of a new facility versus a 
security upgrade at an existing facility?
    Mr. Starr. Primary factor, sir, is that, in many places 
around the world, we do not have facilities that have setback. 
We cannot retrofit many of our buildings to withstand blast or 
direct attack without the ability to move to a new location, 
acquire setback, and build a facility that meets the blast 
standards.
    The Chairman. Now, finally, where new construction is not 
an option because of the inability to either secure land, find 
a suitable location, or for other reasons, how does the 
Department seek to mitigate risks at high-threat, high-risk 
facilities?
    Mr. Starr. Many of those locations, we have withdrawn our 
families, we have cut down and moved our staffing levels to 
only the personnel that we absolutely need, we have worked 
closely with host governments, in many cases, and asked them to 
close off streets around our embassies so that we can try to 
maintain some setback. Many of them have done that for several 
years, but also look to us eventually to move our facilities so 
they can reopen their streets. We work closely in training our 
personnel and then trying to train host-country forces in 
antiterrorism capabilities.
    It is a variety of things, sir. But, the real one, where we 
really are faced with facilities that do not meet our security 
standards, we work with the host government to try to increase 
our setback, put up additional barriers, and harden the 
facilities, and then make sure that we have only the people 
necessary, at the post, that we need.
    The Chairman. So, to recap, money is a consideration, here, 
in terms of your ability to say to this committee, ``We are 
doing as best as we can in order to secure our people across 
the globe.''
    Mr. Starr. I could not say it better, sir. Yes; absolutely.
    The Chairman. All right.
    And then, finally, when we look at new embassy 
construction, I understand it is prioritized on the basis of 
security. Is that a correct statement, or is that an incorrect 
statement?
    Mr. Starr. The primary driver is security, sir. We provide 
a list, with the Overseas Buildings Office, of our highest 
priorities. Within that list, as we understand, that obtaining 
real estate and property deals and then building a facility are 
a long-range and very difficult in certain places, OBO has 
certain flexibility, but we have reinforced with OBO, most 
recently as a month and a half ago, that we want them to relook 
at our highest-threat posts on the high-threat list and 
determine whether or not we can make significant progress on 
them.
    I can give you one example, sir. After 30 years of trying 
to find land for a new facility in Beirut and start the 
construction of a new facility, we believe we are going to be 
successful in the next couple of years. It looks like we have a 
land deal, and it looks like we are going to be able to 
actually replace the facility in Beirut that we have been 
trying to replace for many, many years.
    The Chairman. Great.
    And, for those of us who are not acronym proficient, OBO 
is?
    Mr. Starr. I am sorry, sir. It is the Office of Overseas 
Buildings Operations.
    The Chairman. All right.
    Senator Corker.
    Senator Corker. Mr. Chairman, again, thank you. And thank 
you both for coming here.
    And I know the chairman has asked, sort of, a line of 
questions that--which I expected that he would. And when we had 
the hearing--I guess, the first hearing, with the leadership 
that put forth the ARB, I mean, immediately they were talking 
about money. And it seems like whenever there is a problem, 
that is the first place we go. And I understand we may need to 
look at that.
    At the same time, as we look at your plans, I know you 
currently have $1.4 billion, and you have asked for $800 
million more. And I see that we are spending a huge amount of 
money on facilities at The Hague, Oslo, Port Moresby. And even 
in places where we have construction underway, like Beirut, the 
new Embassy will not be ready for another 6 years. And, at the 
same time--so, this is a lot of money that is being spent in 
places that, candidly, the security issues are not necessarily 
urgent, like we have in some of the places I mentioned earlier, 
in Pakistan and Sudan.
    So, it just seems to me that, from the standpoint of the 
immediate security issues that our personnel has, and all of 
us, including you, wanting them to be safe, our priorities are 
not aligned with what it is we are hoping to do for our 
outstanding Foreign Service officers. And I just wish you would 
respond to that.
    Mr. Starr. Sir, I appreciate the point that you are making. 
And, in very many ways, on an everyday basis, we are trying to 
address the immediate security concerns, through programs like 
increased training of our personnel and our officers; lessons 
that we learned from Benghazi, like, you know, How do we 
increase our fire safety awareness and how do we provide 
safety?--or, How do we provide countermeasures to fire as a 
weapon? In those places where we cannot get new facilities, we 
are doing security upgrades and working our host governments, 
to the best that we can.
    But, I think it is clear that, while we are doing the 
immediate and short-term needs that we need to be addressing, 
we are also asking for the ability to address the long-term 
needs so that, as we move forward in the future, we put 
ourselves, overall, in a better position.
    In 1997, our embassies in Dar es Salaam and Nairobi were 
essentially rated as low-threat posts. We did not know, at that 
point, that we were going to be seeing the phenomenon of 
terrorism working outside of the small Middle East number of 
posts that we were mostly concerned with.
    Today, we know that global terrorism is exactly that: 
global. It is a worldwide phenomenon. We do not know where we 
are going to be, a decade from now. We did not foresee the Arab 
Spring rise. We did not really foresee, in many cases, the 
challenges that we would be facing through the Middle East.
    So, our best answer, on a long-term basis, is, while we are 
addressing the short-term, immediate needs that we have to for 
our personnel and their safety, is also to address the long-
term needs so that we put ourselves, overall, in a better 
position.
    As I said, when we looked at our facilities from a 
vulnerability standpoint, back in 2000, we looked at it and 
said we need probably 175 new facilities. The facility in Oslo 
does not have any setback. It has no blast resistance. It is 
not bullet resistant. It provides a very low level of safety 
for our personnel. I hope to be able to replace even facilities 
in countries like that, as we go along, for the future.
    Senator Corker. Well, I mean, is the answer yes or no? Are 
you going to use some of this $800 million to harden and deal 
with some of the immediate issues? Yes or no?
    Mr. Starr. Yes, sir. We are going to try to address our 
immediate issues and our long-term issues. But, it is a 
combination of both. But, certainly our immediate issues come 
first. We sent out combined State Department and military ISAT 
teams to look at our highest threat-level posts in the 
aftermath of Benghazi. We have dedicated an immense amount of 
resources to trying to upgrade even further those places that 
we have on our high-threat list, and continue to do that.
    Senator Corker. What about the training facility? I have 
received some calls from folks, other Senators about this. I 
understand training now takes place in facilities that are 
already built, though I have not visited them, personally. You 
can share with me your own experiences--but, why would we go 
ahead and--you know, at a time when we need capital to harden 
facilities to deal with some of the longer term needs you are 
talking about--why would we be expending so much money to build 
a new training facility, when apparently those needs are being 
taken care of in another existing facility?
    Mr. Starr. Thank you for that question, Senator. This is a 
question that is very close to my heart.
    We are currently using a leased facility that is, on 
weekends, a racetrack facility in West Virginia. We use it 5 
days a week. We can train approximately 2,500 Foreign Service 
officers a year in what we call ``fact training,'' the types of 
training that--not for DS agents like Bill and myself, but for 
regular Foreign Service officers. We give them high-speed 
training in driving vehicles, antiram training. We give them 
training--basic firearms training on how to make weapons safe, 
first-aid training. We expose them to explosives so that the 
first time they hear a bomb going off, they can understand 
that, if they have survived it, what their next responsibility 
is--you know, deal with themselves and then deal with others 
and first aid. This level of fact training, we have found 
through the years, has definitely saved lives overseas and 
prepared our people to serve in the environments that we are 
sending them.
    Regretfully, the 2,300 people that I can train per year 
does not come close--does not even meet the number of people 
that we have at our high-threat posts, alone. We have certain 
of our high-threat posts where we can only give our people a 4-
hour online course and say, ``Please take this course.''
    So, the capacity of the current facility that we are 
leasing in West Virginia cannot meet our training needs. Our 
long-term goal, given where we are putting people out overseas, 
is to train every single Foreign Service officer every 5 years 
on the types of hard-skills security training that we believe 
Foreign Service officers need; and, in many cases, their adult 
family members, as well.
    So, the current facility does not meet our requirements, 
does not even meet our highest threat-level requirements, and 
is a leased facility that, at some point, may not be available 
to us.
    So, we are seeking to put, in one place, close to where we 
have our partners, the Marine Corps, military, intelligence 
community, and the rest of the Foreign Service training 
apparatus--we are seeking to build a hard-skills training 
center where we can put 8 to 10,000 people a year through this 
type of training. We believe that that will give us the 
ability--in addition to hardening our facilities, the most 
important side--training our people before they go overseas.
    Senator Corker. And if I could just ask one last question. 
You know, we have talked at a 30,000-foot level here about 
capital expenditures. And I know we are going to be in much 
more detail between our staffs. I mean, we now have talked a 
little bit about training, and I understand how important that 
is, and we certainly plan to get into more details with you 
there as we move ahead.
    I guess the last piece is, then, you know, you require 
people within the State Department to execute. And again, I 
know we have had a situation where the State Department has 
reviewed functions. We had four personnel that have been put on 
leave and are still being paid. And, just for what it is worth, 
it does feel that there is a degree of lack of accountability, 
to put it nicely. And I just wonder if you might address that, 
also. Because you build great facilities, you train well, but, 
if people do not execute and there is not that accountability, 
we still have breakdowns and people are in situations that they 
should not be in. So, could you address that issue for us 
today?
    Mr. Starr. Yes, sir. Thank you for the question.
    I think my first answer would be--is that Bill Miller, 
sitting next to me, and my coming back after 4 years at the 
United Nations and 29 years in Diplomatic Security, there is 
nobody that takes this responsibility more seriously than we 
do.
    The people that we manage and the staffs that we have, the 
agents that we train, the security protective specialists, the 
engineers, the people that we have in Diplomatic Security are 
dedicated and ready to give their lives to protecting our 
people overseas. And I will simply say that you will not find 
anybody more ready to take the responsibility or make the 
decisions that have to be made than myself or Bill Miller or 
the rest of my senior staff in Diplomatic Security.
    I understand that there are still questions about the four 
individuals. I was not here at the time. I do understand that 
it is complex, because there are sets of rules and procedures 
within the Foreign Service about disciplining people. It is my 
clear understanding that this entire issue is at the Secretary 
of State's level, that he is getting recommendations on how to 
deal with this, and he will, finally, make the decision on what 
is going to be the outcome with the four people there.
    I will tell you, sir, that three of those four individuals, 
I know well and have worked with closely. These are people that 
have given their careers to Diplomatic Security, as well, and 
the security of the Department of State. And I have a great 
deal of admiration for them. It does not excuse the fact that 
we had a terrible tragedy in Benghazi. And I think that the 
Secretary and his staff will make the proper decisions on the 
disposition of those cases.
    But, I do want to tell you that that is the same management 
team that was in place when our embassies were attacked in 
Cairo, in Tunisia, in Khartoum, all through the years that we 
have had multiple attacks in Yemen, in Afghanistan, and in 
Iraq. Those people performed admirably. And it is my hope that 
their entire career is not blotted by one single action, 
because they are, in many ways, as dedicated as we are.
    But, I will tell you that Bill and I will do our absolute 
best, and we will bear whatever responsibility needs to be 
taken.
    Senator Corker. Well, listen, I thank you for that. And I 
just would say that, look, I do not think anybody here is on a 
witch hunt. And, candidly, I could not pick these four 
individuals out of a lineup. I do not know that I have ever 
even met them. I do think it is important for the culture of 
the State Department and, candidly, for the U.S. Government in 
general, that either, you know, it be stated that these people 
made mistakes that should not have been made and are held 
accountable, or not. And again, whatever is the right decision, 
I think we will all be there. But, this sort of vague place 
that we are in probably needs to end soon.
    And again, I thank you for your response, and I hope the 
Secretary of State will deal with this quickly, because it has 
been a long time. But, I thank you, and I look forward to 
working with you and the chairman as we move ahead.
    The Chairman. Well, thank you, Senator Corker.
    Because this is--I take this obligation very seriously. At 
least on my watch, to the extent that I can, I am not going to 
have anybody exposed and at risk as a result of inaction by 
this committee. So, I am going to, at times here, engage in a 
followup so that we have a sequential record that makes the 
facts. There are two things that Senator Corker said and you 
responded to that I want to get a little clarity, so I will 
hope my colleagues will indulge me as I move to them next.
    He asked you a very good question--you know, immediate 
needs versus long-term needs. And you responded that you are 
working on immediate needs. Of course, ``immediate needs'' 
means to the extent that you can mitigate what exists at a 
post, because if you do not have a setback, you are not going 
to be able to mitigate that fully until you have a new site and 
a new construction. If you do not have a setback, and you are 
talking about hardening--OK, fine, but hardening without a 
setback has limited capabilities.
    So, when you say, in the balance between what some may view 
as the long term, which you described as, hopefully, getting to 
a point in which all of our locations are as best protected 
under the threats that we could envision today, regardless of 
where they are located in the world, because we do not know 
where the next high-risk posts will be, where the movement of a 
terrorist activity will take place, and then we will all regret 
that, well, we did not think that an Oslo meant that much, by 
way of example. So, when you say you are mitigating, you are 
mitigating--correct me if I am wrong, here, and I would like 
the record to reflect whatever it is that--what are you 
mitigating in the short term--what are you capable of 
mitigating in the short term if you have an embassy or other 
site that is not fully living to the specifications of what you 
and the Congress have devised as what is a secure location?
    Mr. Starr. Mr. Chairman, what we can mitigate in those 
locations is, first, a function of what our analysis, in terms 
of the threat and the overall situation in the country, tells 
us. In a place like Oslo today, we have a full-functioning 
staff and a fully functioning embassy, despite the fact that we 
do not have a setback or a secure facility. The reason we can 
do that is that we have excellent cooperation from the host 
government, we do not have information that indicates to us 
that we are running a tremendously high risk by leaving them in 
this facility for the time being, and we have national security 
imperatives that we are carrying out, Foreign Service officers 
working on different things every single day.
    But, to give you another example, sir, is--in Cairo today--
and Cairo is a--not an Inman building; it is a pre-Inman 
building, but quite a robust facility--when the situation 
changed dramatically in Cairo, when we saw specific threats, 
when we saw the social upheaval happening on the ground--in the 
last several weeks, we have evacuated what we call ``ordered 
departure.'' We have moved out all of our families and we have 
moved out all nonessential personnel, nonemergency personnel. 
And these are the types of things that we can do to mitigate 
threats, where we do not have a facility that necessarily 
meets, you know, the highest level of standards.
    There are things that we can do, in terms of, as I say, 
asking the host government to block off streets for us, if they 
will cooperate----
    The Chairman. I gather that. I do not want to cut you 
short, but----
    Mr. Starr. Yes.
    The Chairman [continuing]. What I am trying to get to is 
Senator Corker's concern--or at least it seems to me his 
concern, as expressed at various times now, and today as well--
between the immediate and the long term. To the extent--Is this 
a fair statement? To the extent that you can mitigate something 
in the immediate term, you are seeking to do that. Is that a 
fair statement?
    Mr. Starr. Absolutely, sir.
    The Chairman. Now, that does not mean that mitigation of 
the immediate is the desired goal, because, in fact, you may 
not be able to mitigate beyond--if you do not have a setback, 
if you do not have a hardened facility, if you do not have all 
the other elements that are in play for what we consider a 
fully secured facility. Is that a fair statement?
    Mr. Starr. Exactly. Yes, sir.
    The Chairman. All right. Now, that gives us a little 
balance as to what the immediate versus the long term means.
    With reference to the question of employees, I agree. I 
agree in accountability, and I agree in performance. Now, I 
read the ARB's recommendation, number 23, which said that, 
``The Board is of the view that findings of unsatisfactory 
leadership performance by senior officials in relation to the 
security incident under review should be a potential basis for 
discipline recommendations by future Accountability Boards, and 
would recommend a revision of Department regulations or 
amendment to the relevant statute to this end.'' In essence, 
when they were here, as well, and testified to this question, 
they said, ``Under the existing statutory authority, there are 
limitations.'' What is the proof point that you have to have in 
order to discipline somebody?
    So, I do not know if you have had the opportunity to look 
at section 203 of the legislation that I have promoted, S. 980, 
that I believe satisfied the ARB's recommendation in that 
regard, which would then give the Secretary the authority to 
fire individuals who have exhibited unsatisfactory leadership 
in relation to a security incident. Do you believe that that 
section would give the Secretary that ability?
    Mr. Starr. Yes, sir, I do. I believe it is important to 
give that additional flexibility, and I think that helps us.
    The Chairman. Thank you very much.
    Senator Cardin, thank you for your forbearance.
    Senator Cardin. Well, thank you, Mr. Chairman. Let me just 
concur with your observation.
    Our committee has a very important responsibility for 
oversight. And I appreciate the two witnesses that are here. It 
is our responsibility to review the steps that you have taken 
and resources that you have. But, we also have a responsibility 
to make sure that tools are available for embassy security. And 
that is a responsibility of the entire Senate. The 
Appropriations Committee has the responsibility on the 
resources. This committee has the responsibility as to whether 
the policies are right. And I just want to applaud the chairman 
for S. 980. I think that gives us a way to make sure that you 
have the adequate tools in order to manage the security of our 
embassies. And the chairman's followup questions, I think, 
underscored some of those issues, and I thank you very much, 
Mr. Chairman, for your leadership on this issue, but also 
recognizing the dual responsibility we have on oversight and to 
make sure that the tools and resources are available.
    I want to follow up on facilities, because I have had a 
chance to visit many of our embassies. And there is a common 
theme, except for the very new embassies, when you are able to 
talk frankly with the embassy personnel, there is always 
concerns about the facilities, that they could be better. And I 
know that you did a review and a list was compiled several 
years ago, and I know that we have also made progress. And I 
expect that this list is updated by circumstances in country, 
et cetera. But, is it time for us to do another evaluation, 
globally, of our facilities, recognizing that circumstances 
have changed?
    I, personally, believe we need to do a better job. Oslo is 
an important ally, a friend. I have been to that embassy. I 
understand that it is not a high-risk area, but they should 
have adequate facilities, based upon the security needs and 
efficiency factors. And, in many embassies around the world, 
the United States does not have the combination of space, 
efficiency, and security that is ideal for us to carry out our 
mission.
    Mr. Starr. Sir, I believe that is an accurate statement. It 
is, in many cases, more than just security, but certainly 
security is our overriding factor at this point. But, I believe 
you are accurate when you say that, in many cases, we do not 
have either the space or the types of facilities that we need.
    That is why, when we build new facilities, the primary 
thing that we are trying to achieve is security, but the Office 
of Overseas Buildings looks clearly at what our staffing levels 
need to be, where we are going to be in the future, what types 
of operational and functional space we need; and that includes 
things like much larger consular operations, in many places. We 
have many other agencies in our embassies, as well. And that is 
all wrapped into what it is that we are doing and how we build 
buildings and where we build buildings.
    So, sir, I could not agree with you more. It is a 
combination of factors. But, we believe we still need probably 
at least another 75 or so major buildings.
    Senator Cardin. Mr. Chairman, I would urge that we look at 
a way in that we can get an updated realistic inventory of what 
we need, globally, to meet the challenges.
    I really do applaud former Secretary Clinton and President 
Obama for recognizing the important role that our diplomatic 
missions play in our national security. They need to have the 
resources in order to be able to carry that out in a safe 
manner, in an efficient manner. And I just think we could use a 
better blueprint than the one that was developed 5 or 6 or 7 
years ago.
    Mr. Starr. Senator Cardin, I will take that back, and I am 
sure the Office of Overseas Buildings Operations, and probably 
with us, would be willing to come up and work with any of your 
staff and give you the information that you would like.
    Senator Cardin. I appreciate that.
    Let me move on to a second issue on security, and that is 
the confidence and support that we have from the local 
government and authorities. I know that it varies by country. 
And that is evaluated as part of the security mission that you 
have to undertake.
    Can you just briefly outline how the confidence we have in 
the local government's ability to respond or to work with us on 
security issues, factors into the equation on our security 
needs?
    I wanted to give Mr. Starr a break. So, Mr. Miller, if you 
could respond that, that would be good.
    Mr. Miller. I appreciate that, sir. I was beginning to feel 
a little left out. [Laughter.]
    If I could go back a moment to the ISAT teams that went out 
in November, I led one of those teams as we went about 
assessing our various missions, the 19 missions that we very 
quickly assessed and felt that were our most vulnerable at that 
time. One of the things, one of the legs that we were assessing 
was our host nation's willingness and capability to defend the 
mission in accordance with their Vienna requirements. As we 
look at that, we have to roll that into ``If it's weak on one 
leg, we have to strengthen the other.'' And that would be our 
ability to withstand an attack, say, for instance, as we did 
for quite some time in Khartoum and in Tunisia, about 8 hours 
as those facilities were attacked in early September, as well.
    So, if we have a weakness on one side, we have to be able 
to mitigate that by strengthening on another. It is not always 
possible, however. And that calls into play, then, a greater 
requirement for our diplomatic cadre to work with the host-
nation political counterparts to ensure that they live up to 
their responsibilities, just as we do here for them in the 
United States.
    It is something that we try to address, where we can, with 
training, through our antiterrorism assistance programs and 
other bilateral training programs that the U.S. Government 
provides to help bolster their own professional capabilities 
and, hopefully, build it up to the point where we can trust, as 
we do in most places, their ability to secure us.
    Senator Cardin. I would just make one observation. I would 
hope that we engage the political apparatus of our country at 
the highest levels if we need more cooperation from host 
countries.
    I want to ask one more question on one of the ARB 
recommendations to address language capacity. Could you just 
briefly update us as to how that recommendation is being 
implemented?
    Mr. Miller. Certainly. And as this applies primarily to the 

capacity for Arabic language skills, the Foreign Service 
Institute has been working very diligently with the rest of the 
Department, to include with Diplomatic Security, to assess what 
our language requirements are for our special agents as they 
engage with their host-nation counterparts.
    We anticipate, I believe, that the first class begins this 
next month, or early September, to give those skills, or the 
opportunity to acquire the skills for our special agents in 
such a way that they will be able to work in an emergency 
situation. Realizing that it is a long-term process to acquire 
proficiency that allows them to converse proficiently, that 
process can be upward of 2 years for someone like myself, 
shorter for those who are a little brighter. But, it is a very 
difficult process. We are hoping to achieve that with a short-
term objective with our immediate security language course in 
Arabic.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator Cardin.
    And, Mr. Miller, feel free to join in on any answers that 
you want. We want a full record, as much as possible, so do not 
hesitate to jump in.
    Senator Flake.
    Senator Flake. Thank you. And I apologize for not being 
here. And I apologize if this has been asked and answered 
probably three times by now with regard to the legislation that 
has been introduced.
    Assuming that legislation were in place and implemented, 
would it have affected the outcome in Benghazi, simply because 
it was not an embassy or even a consulate? Would it have made a 
difference there or--in your opinion?
    Mr. Starr.
    Mr. Starr. Benghazi was at a threat level that we should 
have reprioritized what we were doing within our existing 
capabilities. I thank the chairman for introducing this 
legislation. In the long term, it will help us on a number of 
different fronts. But, I am not going to sit here and tell you 
that the tragedy in Benghazi could have been avoided, had we 
had this legislation. I think that was a question that we did 
not understand the situation that we were in, and perhaps we 
should have had more resources or we should have made a 
decision to evacuate that post earlier.
    But, you know, we very much appreciate this legislation. It 
will help us in many, many ways. It will strengthen our 
capability to stay in places where the threats are greater. 
But, I am not going to blame Benghazi on the lack of this 
legislation.
    Senator Flake. Do you have anything to add?
    Mr. Miller. No, sir.
    Senator Flake. OK.
    Benghazi was a particular situation there, given the makeup 
of the government and the situation just to--you know, the 
newness of all this. What lessons have we learned from that, 
that can be applied elsewhere, in terms of our relationship 
with a host nation? The host nation did not even know this 
facility was there, I understand, or they were not informed of 
it. What protocols have we put in place, if any, after that, to 
make sure we have better cooperation with the host nation, in 
terms of security needs?
    Mr. Miller. One of the chief issues, I think, that we have 
realized, and was addressed in the ARB, was the fact that all 
of our facilities should meet OSPB standards--Overseas Security 
Policy Board standards--for physical security. In this 
instance--and I was not in a position to know why--but, in this 
instance, they were not met. There were no waivers that were 
granted. That has been rectified. We will not have a temporary 
facility that has not been signed off on at the highest levels, 
wherein a balance of our national security interests and the 
diplomatic imperatives are weighed against the security threat. 
So, I would say that is one positive outcome of the ARB.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Flake.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And, to our witnesses, I appreciate you being here today.
    My first hearing as a Senator was the hearing with 
Secretary Clinton to talk about the Benghazi incident and the 
ARB recommendations, and it was a very memorable one; I will 
never forget that first hearing. I reviewed the ARB in advance 
of the hearing, to prepare--and, Mr. Chair, I imagine you know 
this--there are so many recommendations that you kind of 
personally fix upon a couple, and there are a couple that I was 
particularly interested in.
    One was the recommendation about the expansion of the 
Marine Security Guard program. And the second was the 
recommendation about training of our State Department 
personnel.
    In the packet of materials that we were given for this 
hearing, there is a New York Times graphic, where there is a 
summary, as of May 20, how far along we are in meeting the ARB 
recommendations. And there is sort of a spectrum in each of 
these various recommendations, from, basically, ``not started'' 
to ``completed.'' And in each of the recommendations, there is 
sort of a New York Times assessment of where we are.
    The Marine Security Guard one is sort of lower than the 
midpoint, but the lowest one, the one that is most near ``not 
even started yet,'' is the recommendation about: to improve the 
training of employees headed to high-threat posts and expand 
the number of posts where additional security training is 
required.
    Assistant Secretary Starr, you talked about the issue, in 
response to questioning from Senator Corker, about the need for 
the training facility for State Department employees. And you 
and I have met about this previously. And the chairman's 
proposed legislation addresses this. But, just to give some 
history for everyone here, the State Department began trying to 
find a training facility to replace the racetrack, that was 
used during the week, about 4 years ago. They began this long 
before Benghazi, long before the ARB. And there has been a 4-
year effort that considered 80 different sites for this 
training facility, and it eventually dwindled down, whittled 
down--some communities did not want it--and with the particular 
requirements, largely to involve a facility that would be close 
to partners, synergy with the Marine Security Guard and others, 
it dwindled down and there was a preference for expanding this 
program at a Guard base--a National Guard base in Virginia, 
Fort Pickett. And that was, basically, the preference that we 
were moving toward before Benghazi and before the ARB.
    After the incident at Benghazi, the ARB report has a 
recommendation, recommendation number 17, that specifically 
focuses upon the need to move out of this rented facility and 
find a permanent facility for embassy training.
    In February, just a few months ago, the State Department 
communicated to Congress and indicated that they were about to 
issue an EIS for Fort Pickett, but, in April, there was another 
letter that suggested this was now delayed, largely because of 
an inquiry from the OMB about whether or not we could maybe do 
this kind of a half version or a knockoff version at some other 
facility. And I gather that there has been some exploration of 
an existing facility in Georgia that would not have the 
synergies with the Marine Security Guard Program, that would 
not have synergies with the other intelligence agencies with 
whom our Department of State staff worked.
    So, it appears that this process that was moving forward 
before Benghazi and before the ARB to actually require this 
training capacity is now, after Benghazi and after the ARB, 
being thrown into kind of a question-mark status.
    It would be ironic--that is the wrong word. It would be 
tragic if a process that was moving toward better training, 
optimizing training for Secretary of State--or Department of 
State staff before Benghazi and before the ARB, would be now 
slowed down, watered down, diluted after we know what we know 
as a result of those horrible incidents on September 11, 2013.
    And so, Secretary Starr and Mr. Miller, what I would like 
to ask--Assistant Secretary Starr--what I would like to ask you 
is, From the State Department's standpoint, is it still your 
professional belief that the site that was identified by the 
Department of State at Fort Pickett is the most consistent with 
both the desire to increase training and also most consistent 
with the ARB recommendation that was forwarded to Congress by 
the committee?
    Mr. Starr. Senator Kaine, thank you for your question. The 
answer is simple: yes, sir. We still believe that the site that 
we chose at Fort Pickett gives us the best ability to train the 
numbers of personnel that we need to train; to incorporate our 
partners in the various other U.S. Government agencies, that 
are critical to our training, into that training; to build the 
synergies that we have with our own Foreign Service Institute 
and our own training regimens up here. Yes, sir, we still 
believe that is the best answer.
    Senator Kaine. Mr. Miller, from your standpoint?
    Mr. Miller. I can only echo what Assistant Secretary Staff 
said. We have to have the synergy in order to develop the 
relationships with our training partners as well as for the 
students who are going through. And we both could give you 
numerous examples of opportunities that foreign affairs 
officers have had to participate in actual lifesaving events, 
where they have benefited from the training that they had at 
the racetrack, which has so well served us throughout my 
career. But, we can do better. And if we can do better, we 
absolutely have to, because we are talking about people's 
lives.
    Senator Kaine. Thank you. I do not have any other 
questions.
    Senator Cardin [presiding]. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    You know, the security of brave men and women serving our 
Nation overseas is critically important. To me, the 
Accountability Review Board made it clear that the State 
Department did not give the mission in Benghazi the personnel 
and resources needed to ensure their security. So, I just 
wanted to make sure that we are learning from those failures 
and implementing real reforms.
    With regard to risk mitigation, I understand that we must 
accept a certain amount of risk to operate in areas like 
Benghazi. The Accountability Review Board stated, ``Risk 
mitigation involved 
two imperatives: engagement and security, which require wise 
leadership, good intelligence and evaluation, proper defense, 
and strong preparedness, and, at times, downsizing indirect 
access,'' they say, ``and even withdrawal.''
    So, the question: What are the factors that the Department 
of State considers when determining whether a location is 
simply too dangerous to support a diplomatic presence?
    Mr. Miller.
    Mr. Miller. Thank you, Senator.
    We look at three basic questions: the host nation's 
capability and willingness, as I said earlier. We look at the 
current threat streams, those threats which have developed, 
that we are aware of, that direct themselves to our facilities. 
And then, we also look at the physical presence that we are 
able to maintain, based on our physical security posture at 
post. And, as we balance those three and any possible 
mitigation, we then move forward with our diplomatic 
engagement. If we cannot balance those three, then we have to 
assess those options which you have just addressed.
    Senator Barrasso. Are there posts, currently, that you have 
identified as needing to either be downsized or closed?
    Mr. Miller. I can point back to Bangui, which we evacuated 
late last fall--late December. We are constantly evaluating 
other posts. A good example is our U.S. Embassy in Cairo, over 
the past month, as they have gone through the large 
disturbances, not only in Cairo, but throughout the country. 
So, it is a constant evaluative process that we go through and 
assess, then, what our next steps may possibly be.
    Senator Barrasso. Could I ask about the Inspector General's 
audit of June 30, came out--2013--released its audit of 
compliance with physical and procedural security standards at 
select high-threat-level posts. And I am concerned that it has 
been 10 months since the terrorist attacks in Benghazi, yet the 
Inspector General found that there are high-threat-level posts 
are failing to comply with security standards. I do not know if 
you have seen the audit yet. Can you explain to the committee 
why these problems are happening, and what the plan and 
timeline is for, you know, remedying these issues?
    Mr. Miller. Thank you. I think it is important that we do 
point out some differences that we may have with the Office of 
Inspector General when they do provide a report, as this one. I 
think it is important to note that the high-threat, high-risk 
posts that I am responsible for leading and supervising the 
management of their programs, I do not believe they visited any 
of those posts. When they are referring to high-threat, that is 
a very often-used and not-well-defined term. So, as they look 
at the various recommendations, it should be parsed very 
carefully when we look at the HTP posts for which I am 
responsible.
    I will say that we are continuing to work with the OIG to 
address their concerns. We want to ensure that our people do 
have the best-possible protection, and we value the OIG's 
perspective. But, I know DS, or Diplomatic Security, is working 
with the OIG to find common ground.
    Senator Barrasso. Well, thank you for that clarification.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you.
    Let me thank both of our witnesses, not just for your 
testimony, but for the incredible service that you are 
providing our country. It is an extremely difficult time, and 
obviously the safety of our personnel is an important 
responsibility. So, we thank you very much.
    We also appreciate your willingness to work with this 
committee. There has been a lot of questions asked that I think 
will involve us working together to make sure that we have safe 
facilities and personnel in the right place, et cetera.
    As I said earlier, we have a responsibility, not only of 
oversight, but to be your partners, and we look forward to 
working with you to protect the dedicated men and women who 
serve our Nation in foreign posts around the world.
    With that, the committee will stand adjourned.

[Recess.]

    The Chairman [presiding]. The committee will come to order. 
I apologize for the confusion.
    I understand that facility training had a indepth 
discussion, I assume. Is that correct? So, let me ask, if I 
may, a couple of questions, just to conclude, then.
    One is, I want to go back to the questions that Senator 
Flake raised with you. And, for my purpose, they are not 
Benghazi-specific, but they are about temporary and mixed-use 
facilities. My understanding is that the U.S. Special Mission 
in Benghazi was a temporary facility, and that the Overseas 
Security Policy Board standards for facilities apply to all 
facilities, including temporary facilities.
    In a report that the ARB issued, the State Department noted 
that it would reissue this long-established policy to all posts 
by January of this year. Do we know, was that policy reissued?
    Mr. Miller. It was reissued. I believe it was January the 
23rd.
    The Chairman. OK. And how are the Overseas Security Policy 
Board standards enforced at temporary facilities?
    Mr. Starr. Sir, when we move back into a country--and this 
is really where we are going to experience temporary 
facilities--one of the things that we are going to have to do 
is determine what our presence is going to be, and then we are 
going to have to determine what facilities are available and 
whether or not we can balance the need versus the safety.
    Part of the process is looking closely at what facilities 
are available, what it will cost to do those facilities, and 
whether or not we have the ability to do it.
    We are currently not in Somalia. We send temporary-duty 
personnel into Somalia because we do not have a facility that 
we think could meet our requirements at the moment. And I think 
that, perhaps, is the best judgment I can give you.
    We are very vocal and very clear when we think that we do 
not have an answer that can meet the security requirements.
    We are very concerned about places like Goma. We only allow 
temporary-duty travel in, working very closely with the United 
Nations. We do not have a facility that meets our needs there 
at the moment.
    Should the Department make a determination that we need to 
go back into those places, we use the integrated planning cells 
to determine what we need to have. We have to make a 
determination whether we have the internal resources to meet 
those needs or have to come to Congress for a supplemental to 
do it. We have developed certain new tools to help us.
    One of the things we learned out of Iraq, when we had many, 
many people in trailers in many places, and then we would take 
these trailers and we would put sandbags around them, and then 
we would put overhead cover, and then we would put walls around 
them--we have developed something called ``a hardened-
alternative trailer system,'' which is a highly blast-
resistant, bulletproof trailer, at this point, that provides a 
high degree of overhead protection built right in. So, we are 
trying to develop new tools that will give us reasonably safe 
and secure accommodations, and even offices, in these 
temporary-type situations.
    The Chairman. So, let me go to part B of this particular 
Benghazi-type set of circumstances. And that is: In instances 
where a facility is shared or is used principally by a U.S. 
Government agency other than the Department of State, how does 
the interagency process address security needs at that 
facility? Who takes the lead?
    Mr. Starr. The individual agency will be responsible for 
upgrading the facility, but it still is upgrading to the OSPB, 
the Overseas Security Policy Board, standards. And if they do 
not meet 
the standards, they go through the same waiver and exception 
processes.
    The Chairman. Very good.
    Now, I want, for the records purposes, to establish 
something that I think we, on the committee, know--you, 
certainly, in the Department, know--but I do not think the 
general public knows. And that is the Marine Guard attachment 
to embassies. Until now--correct me if I am wrong--the Marine 
Guard attachments to embassies was, in essence, for the 
security of sensitive and classified documents. Is that 
correct?
    Mr. Starr. That is essentially correct, sir. The staffing 
levels of marines that we were putting in facilities was 
essentially to meet that requirement: 24-hour protection for 
classified assets and operations and information.
    The Chairman. Now, most people see the Marine Guards-- 
I think even Members of Congress, when they visited abroad--and 
thought that somehow they were about protecting the embassy, 
its personnel, and whatever else, including documents, was in 
there. But, that really was not the core focus. Their core 
focus, up until a new recent agreement, was to give the time, 
should an embassy be overrun, for the purposes of being able to 
deal with classified documents. Is that a fair statement?
    Mr. Starr. That is correct, sir.
    The Chairman. All right. Now, I understand that, at least 
at high-threat posts, there is an additional mandate or 
responsibility that we have asked the Marines to perform. Is 
that correct?
    Mr. Starr. Yes, sir.
    The Chairman. And what would that be?
    Mr. Starr. We have renegotiated the Memorandum of Agreement 
with the Marine Corps between the Department of State and 
clearly emphasized that our new mandate is equal protection for 
our personnel and our facilities in our embassies while 
protecting classified information.
    Sir, if I may----
    The Chairman. Yes.
    Mr. Starr. Even when we had our smaller numbers assigned to 
our detachments, in many cases, you know, six or seven marines, 
and the primary responsibility was protection of classified 
information, there was not a marine out there, and there was 
not an RSO out there, that did not understand that, in 
extremis, their job was to protect the people. But, we were not 
staffing with enough marines, necessarily, to take on that 
role. And what we are working with the Marine Corps is in--
particularly in our high-threat locations, to increase the 
numbers of marines at each one of these posts so that they are 
better capable of doing the defense portion, as well.
    The Chairman. I appreciate you expounding upon that, 
because I did not suggest to mean that marines would stand by 
and see people killed. But, certainly there was no staffing 
level to be able to accomplish that, particularly at high-
threat posts.
    Is the new Marine understanding that has come together with 
the State Department on high-threat posts or globally?
    Mr. Starr. The Memorandum of Agreement is global. The 
reality is that we are concentrating on our highest-threat-
level posts and increasing our marine staffing at those 
locations.
    The Chairman. OK.
    And then, finally, I want to get to host-government 
capacity. The Accountability Review Board found that the Libyan 
Government's response to be profoundly lacking on the night of 
the attacks. A host government's support posture relies on both 
the host government's capacity as well as their will. Those are 
two--critically important. You can have the will but not have 
the capacity; you can have the capacity but not have the will. 
They both need to be there.
    So, as we look beyond Libya--and we are looking, now, 
globally--how do you assess these variables? How do you 
quantify them? How do these determinations go into your overall 
security assessment? And is the provision that we have included 
in the legislation which deals with the question, not of the 
lowest cost, but the best cost for performance, as well, to 
give you the flexibility, particularly in places where that 
will be critical to security, a desired flexibility?
    I know there are multiple questions in there, so----
    Mr. Starr. let me take the last part of it and then turn to 
Bill on part of this.
    On the contracting, sir, we believe that it is critical. 
And we thank you very much for recognizing that the situations 
in almost all of our posts are different. And, in certain 
cases, where we do not have, perhaps, the level of support, 
because of willingness or capability, from the host government, 
situations may arise where the idea of lowest-cost technically 
acceptable contracting is not going to give us the guard force 
that we think that we could get if we had another instrument to 
contract with.
    So, we want to thank you. We do believe that adding this 
capability, not just at our high-threat posts, but where we 
believe there is a clear indication that this will increase 
significantly our security capabilities, it gives us a tool to 
do that, sir.
    So, yes, I think it is an important step that allows us to 
address some of the inherent capabilities when we do not 
necessarily have the level of support from our host government 
that we would like.
    On the specific----
    The Chairman. How about the questions of, How do you assess 
the host-government's ability, willingness? How do you quantify 
it? How do you make those determinations to factor in your 
overall security assessing?
    Mr. Miller. To some extent, it is a subjective call. But, 
we quantify it, as much as we possibly can, through our various 
partners with us at the embassy who help to assess the training 
that the host services have received. Historically, in many 
posts, we have a relationship that has gone back for a number 
of decades, and we can quantify, then, what our expectation 
should be and how well they can live up to those expectations.
    In some instances, because of recent instability, that 
expectation has been nullified. And then it is a matter of us 
taking the opportunity, as I said in my opening statement, to 
go to extraordinary measures, above those measures which are 
standard. And, in those instances of--the best-value 
contracting gives us the opportunity 
to achieve a level of competence with our local guard forces 
that 
we would not necessarily be able to achieve with the host-
nation services.
    Mr. Starr. Mr. Chairman, if I may, I think we can quantify 
the capabilities pretty well by working closely with our 
Defense colleagues or intelligence colleagues, our own security 
staff. We can see pretty well, and make a pretty good 
determination of, the capabilities of the host government.
    Much more subjective is this question of what is the 
particular willingness at a time. And we are much more 
sensitive, the entire Department is, to having a better 
analysis capability and having our political officers and our 
ambassadors really weighing in on what is the particular host-
government desire to help us in a particular time.
    There are certain places where we could have a great deal 
of willingness on a Tuesday afternoon, and, in some cases, by 
Friday afternoon it may not be there. And this is, I think, 
part of the dilemma, but it is also part of our solution, which 
is for our security personnel, Bill and I and others, to work 
much more closely with our regional bureaus and with our 
ambassadors.
    The Chairman. I have one final question, and that is on the 
question of intelligence and its use, integration into your 
analysis, and to looking at changing events, which might 
indicate a different threat level, that we may not have 
traditionally thought of as necessarily looking at a different 
threat level. In the new paradigm in which we live in, which, 
unfortunately, requires us to think outside of the box, you 
know, the terrorists have to get only lucky once; we have to 
get it right 100 percent of the time. That is a tough 
challenge, but that is our challenge.
    How are you integrating the use of intelligence? Are you 
receiving the flow of information that is essential, I would 
think, for you to continue to make an analysis on an in-real-
time ongoing basis so that you can adjust accordingly where you 
need to?
    Mr. Starr. Yes, sir. The relationship across the spectrum 
of 
intelligence community and us has broadened and deepened. We 
have officers that--from other agencies--that are working with 
us at our desks, in our offices, now. The level of coordination 
that goes on, in terms of discussion of threats, is deeper and 
wider, and held both at the working level and at the national 
security staff level. The coordination that we have with our 
regional bureaus now--every weekday morning, and Saturdays and 
Sundays as necessary, we start off looking at the threats that 
have come in most recently. In those same meetings, we have 
representatives from the regional bureaus of the Department of 
State so that we are linking up the political with the 
intelligence that is coming in.
    If I can say one thing, sir, that--one major strategic 
lesson that came out of Benghazi. One of the observations of 
the ARB was that there was no specific intelligence in Benghazi 
to indicate that there was a threat--going to be a threat that 
night. And I think it--you can lull yourself into a position, 
where, if there is no specific intelligence, you say, ``OK, we 
must be OK.'' I think one of the major changes that has 
happened is that we are much more aware of the larger 
atmospherics in these countries--the political, the social, 
what is going on in terms of Web activity, social networking--
trying to keep abreast of what we see is going on in that 
country, in addition to whether or not we have specific 
intelligence threats, is a much deeper, much broader effort 
than we have had before, as well.
    So, I think it is really both sides. It is the intelligence 
side that is deeper, broader, and more important to us, but it 
is also keeping much more abreast of what is really happening 
in that location, and melding the two into our decisionmaking, 
and then what we do as recommendations further up in the 
Department.
    The Chairman. And when you say that your use or access or 
universe of intelligence is deeper and wider, are you referring 
to that deeper and wider as post-Benghazi?
    Mr. Starr. Yes, sir.
    The Chairman. Yes.
    All right. With that, and seeing no other members before 
the committee, with the thanks of the committee both for your 
service and for the men and women who serve under you in 
protecting our diplomats abroad, you have the thanks of the 
committee. We look forward to a continuing engagement with you 
as we try to move this legislation forward.
    The record will remain open until the close of business 
tomorrow.
    And, with that, the hearing now is truly adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Principal Deputy Assistant Secretary Gregory Starr to 
               Questions Submitted by Senator Bob Corker

   long-term embassy construction versus immediate threat mitigation
    The Department is requesting and S. 980 would authorize an $800 
million increase from the $1.4 billion we currently spend on new 
embassy construction in the Capital Security Cost Sharing Program 
(CSCSP). In his testimony, Acting Assistant Secretary for Diplomatic 
Security, Gregory Starr, informed the committee that this increase 
would be spent on addressing immediate security deficiencies at 
existing posts that are not able to initiate new construction. Yet in 
May, committee staff were briefed about the 2013 and 2014 build plans 
to spend the total $2.2 billion for embassy construction, and State 
indicated plans to use the entire funding for long-term, new 
construction projects such as new embassy and consulate construction, 
Marine Security Guard quarters, and land acquisition.

    Question A. Since S. 980 authorizes $2.2 billion for CSCP, which is 
used to fund new construction projects, what specific amount from this 
fund would be used for immediate threat mitigation in high-risk, high-
threat posts that are not currently under construction for more secure 
facilities and how is that reflected in the 2013 and 2014 build plans 
that were provided to the committee?

    Answer. There are 27 posts designated as High-Threat High-Risk. The 
Bureau of Overseas Buildings Operations (OBO) has either completed or 
has under construction new, secure facility projects at 12 of these 
posts.
    Further, the Department's FY 2013 plan includes $462 million for 
design and construction of new Embassy compounds at three posts 
(N'Djamena, Nouakchott, and Beirut) designated as High-Threat High-
Risk.
    Site searches for the remaining 11 posts designated as High-Threat 
High-Risk are underway, but without a site, construction cannot be 
scheduled for a specific fiscal year and it would be premature to 
allocate funding. Once sites are acquired at any of those locations, 
the capital project schedule can be revised to include construction 
award at those posts as soon as possible.
    Until sites can be acquired and new projects are underway, the 
Department will take steps to increase the physical security at these 
posts. As described in the response to question B, funding for this 
type of immediate security upgrade comes from outside the Capital 
Security Cost Sharing program. For example, a $34 million project in 
Tripoli funded from Embassy Security, Construction, and Maintenance 
Overseas Contingency Operations (ESCM/OCO) and other agency 
contributions is underway to include a perimeter wall, compound access 
control facilities, compound emergency sanctuaries, and other security 
enhancements recommended by the State-Department of Defense (DOD) 
Interagency Security Assessment Team (ISAT).
    Additionally, OBO has also obligated $26 million of FY 2013 ESCM/
OCO funding to implement immediate security upgrades at 19 posts (13 of 
which are designated as High-Threat High-Risk) in response to the 
recommendations of the ISAT.

    Question B. If funding for immediate threat and security mitigation 
for U.S. personnel serving at unsecure posts that are not eligible or 
able to initiate new construction for safer facilities does not come 
from the CSCP account, what account does such funding come from and how 
much money is specifically allocated to such immediate threat 
mitigation in FY 2013 and 2014?

    Answer. The Department has several options to mitigate security 
concerns at posts that are not immediately scheduled to receive Capital 
Security funding for the construction of new facilities.
Overseas Buildings Operations (OBO) Funding Options:
    First and foremost is the Compound Security Program which provides 
physical security upgrades to existing facilities. These upgrades 
include perimeter walls, compound access control facilities, vehicle 
barriers, mantraps, compound emergency sanctuaries, and forced-entry/
ballistic-resistant doors and windows. Our plan for the FY 2013 Embassy 
Security, Construction, and Maintenance (ESCM) appropriation includes 
$85.3 million for the Compound Security Program and the FY14 budget 
request includes $101 million. Since the inception of the Compound 
Security program in 1999, Congress has provided nearly $2 billion, 
allowing the Department to undertake security upgrades and enhancements 
at many posts worldwide.
    In addition to the Compound Security Program, security enhancements 
may be incorporated into larger renovation projects that are funded 
from OBO's Maintenance Cost Sharing (MCS) and Major Rehabilitation 
Programs. The FY 2013 appropriation provides an overall program level 
of $270 million for MCS program, which is cost-shared between the 
Department ($156 million from the ESCM appropriation) and other agency 
contributions ($114 million) to support maintenance requirements at 
functional facilities occupied by multiple agencies. In FY 2013, the 
Major Rehabilitation Program provides $35.3 million from the ESCM 
appropriation for State-only functional and all residential facilities. 
The Department's FY 2014 budget request includes $35 million for the 
Major Rehabilitation Program and $130 million for the Department's 
share of the MCS program, which totals $167 million with other agency 
contributions.
    Construction of new facilities that is driven by factors other than 
security, and is therefore not eligible for Capital Security funding, 
is funded from the Strategic Capital program with the ESCM account. 
While security vulnerability is not the reason for undertaking these 
projects, all facilities will be constructed to the Department's 
security standards. Our plan for the FY 2013 ESCM appropriation 
includes $69.9 million in Strategic Capital to fund the Department's 
share of the second phase of the new NATO headquarters facility in 
Brussels. There is no Strategic Capital funding in the FY 2014 budget 
request.
    The Department also has the authority to retain the proceeds from 
the sale of excess and underutilized properties and use them to 
purchase or construct new facilities. New Embassy facilities in Berlin 
and Luanda were funded from proceeds of sale, as is the new London 
Embassy project.
Diplomatic Security (DS) Funding Options:
    In FY 2013, the Department, through the Bureau of Diplomatic 
Security, has allocated $27.3 million of FY 2013 funds for Worldwide 
Security Protection (WSP) within the Diplomatic and Consular Programs 
(D&CP) account for physical security upgrades to mitigate security 
vulnerabilities at certain high-threat high-risk posts.
    In addition to the $27.3 million of funds available for high-
threat, high-risk physical security upgrades, $177.5 million of 
``undistributed'' D&CP/WSP funds are available to meet emerging 
security needs as they arise, for a total of up to $204.8 million as 
needed to mitigate physical security concerns outside of CSCS.
    In FY 2014, if fully funded, the President's request would provide 
funds within the D&CP/WSP account to mitigate physical security 
concerns on an as-needed basis.

    Question. What actions is Diplomatic Security taking to monitor 
requests from overseas posts seeking security exceptions and waivers 
and to ensure that such exceptions and waivers are only granted where 
absolutely essential? Who is the most senior Department officer that is 
required to authorize security exceptions and waivers for high-threat 
posts?

    Answer. The Secure Embassy Construction and Counterterrorism Act of 
1999 (SECCA) requires that all newly constructed/occupied overseas U.S. 
diplomatic facilities possess a 100-foot setback from their perimeter, 
and that all U.S. Government operations be collocated on one chancery 
or consulate compound. Any deviation from these SECCA provisions 
requires a waiver from either the Secretary (all newly constructed 
chancery and consulate buildings that do not meet SECCA requirements) 
or the Assistant Secretary of Diplomatic Security (all other requests).
    In addition to SECCA's requirements for colocation and setback, 
security standards are established by the Overseas Security Policy 
Board (OSPB), an intergovernmental board comprised of representatives 
from all agencies that operate in an overseas environment under Chief 
of Mission authority. The Board is chaired by the Department of State's 
Bureau of Diplomatic Security. OSPB physical security standards include 
standards for doors, perimeter walls, compound access controls, etc.
    The Department strives to meet as many OSPB security standards as 
we can in all facilities. New construction rarely poses a problem, but 
it can be a challenge to retrofit an existing facility. OSPB exceptions 
may be granted by the Assistant Secretary for Diplomatic Security. If 
an exception to an OSPB standard is needed, the requestor must explain 
the justification for such an exception. All areas that fall short of 
the required standards must be identified and mitigating measures must 
be described to explain how the facility will address the shortfall.
    There are times when U.S. national interests require our immediate 
presence. In these circumstances, we must find a suitable facility and 
enhance security to the maximum extent possible. Time and the limits of 
construction feasibility circumscribe our ability to retrofit an 
existing structure to meet our full standards. In the future, secure 
expedient facilities will likely remain a critical need, and we 
continue to examine how to best meet this need based on the totality of 
the operating environment and host country capabilities.

    Question. According to testimony from Secretary Clinton before the 
committee, she and other senior leaders at the Department were never 
briefed on pleas from Ambassador Stevens for increased security 
personnel. Specifically, the Secretary, when asked whether she 
participated in meetings regarding the deteriorating security in Libya, 
she stated that ``. . . with specific security requests, they did not 
come to me. I had no knowledge of them.'' The Secretary also testified 
that ``the ARB made very clear that the level of responsibility for the 
failures that they outlined was set at the Assistant Secretary level 
and below.''

  <bullet> Under the new procedures the Department put in place after 
        the Benghazi 
        attacks, what are the specific roles and decisionmaking 
        requirements, if any, of each of the top three officials at 
        State (Secretary, Deputy Secretary, and Under Secretary for 
        Management) for addressing security requests and crises at 
        high-risk, high-threat posts, like in Benghazi, and how will 
        that role and involvement in decisionmaking be documented?

    Answer. Decisions on security requests from posts are made by 
consultation within the Department. Working with Regional Security 
Officers and other officials at posts, Deputy Assistant Secretaries of 
the Regional Bureaus, their staff, Department leadership, and the 
Bureau of Diplomatic Security interact daily to ensure that threats and 
security needs not only at the high-threat, high-risk posts, but 
worldwide, receive the appropriate scrutiny and response. Secretary 
Kerry has noted that we can never provide a 100-percent risk-free 
operating environment. Nevertheless, the Department is determined to 
take measures to mitigate risks whenever and wherever possible. The 
Department works every day to balance security with the ability of our 
diplomats to get out and do their jobs.
    We are working to ensure that our risk-management process for high-
threat locations is institutionalized, repeatable, and transparent. 
Reviews of the U.S. Government presence and mission, and our security 
posture, will take place at least annually following the update of the 
high-threat, high-risk posts list. This process will also provide for 
such reviews on an ad hoc basis in the event the security situation in 
a location deteriorates.
    This review for each location determined to be a high-threat, high-
risk post will be documented via a memorandum approved by the highest 
levels of the Department.

    Question. Based on briefings and information provided by the State 
Department, we understand that OMB rejected the Department's $950 
million proposal for a consolidated facility and directed the 
Department to undertake a review of existing training capabilities 
associated costs.

  <bullet> Is that process completed, and if so, and what has been 
        determined?

    Answer. Because of the ongoing, serious fiscal challenges facing 
the U.S. Government, including the order of sequestration, which went 
into effect on March 1, the administration asked the General Services 
Administration (GSA) and the Department of State (DOS) to perform 
additional due diligence to determine the best use of taxpayer funds. 
As a result, the Department is conducting additional cost studies for 
the Foreign Affairs Security Training Center (FASTC) project. The 
Department has also been asked to work with the Department of Homeland 
Security (DHS) to evaluate whether any training capacity for DOS 
personnel is available at the Federal Law Enforcement Training Center 
(FLETC) in Glynco, GA. Further work on the FASTC project at Fort 
Pickett has been put on hold, pending the results of the additional due 
diligence effort with FLETC.
    Based on information FLETC has provided to date, the Department 
does not believe FLETC has excess training capacity available to 
provide the necessary and timely platform for a dedicated DOS training 
facility. DOS continues to support Fort Pickett as the best location to 
build FASTC. The Department is committed to an open and transparent 
process and will provide more information to the committee as it 
becomes available and decisions are made regarding the future of FASTC.

    Question. Is there no combination of existing government or private 
sector training facilities (including but not limited to federal law 
enforcement training centers and DOD facilities like the Naval Support 
Activity Charleston) that could be combined to provide the same 
training that a brand-new FASTC facility would provide?

    Answer. Since 2009, the Department of State and the General 
Services Administration (GSA) have invested considerable time and 
effort in reviewing over 70 properties, including the Department of 
Defense (DOD) facilities and law enforcement facilities before 
identifying 1,500 acres of land on and near Fort Pickett, an 
underutilized military base located in Blackstone, VA, that meet our 
specific requirements for a hard-skills training facility.
    Over the last 2 years, the Department of State and GSA have worked 
extensively to conduct environmental studies, start negotiations for 
land use agreements, secure community support at Fort Pickett, and 
ultimately reassess the scope of the FASTC project at Fort Pickett. 
Through these efforts, it was determined that a smaller platform at 
Fort Pickett was more fiscally prudent.
    The proximity of Fort Pickett, which allows the Department to 
maintain and strengthen synergies due to its proximity to Department 
Headquarters, the National Foreign Affairs Training Center (also known 
as the Foreign Service Institute), DOD, and the Intelligence Community 
(IC), cannot be overstated. The evolving overseas mission and 
continually changing worldwide security environment requires greater 
coordination with our partners, particularly DOD on the ``new normal,'' 
and positioning FASTC at Fort Pickett will allow the Department to meet 
this need well into the future.

    Question. Has the State Department requested, initiated, or 
completed any internal or external cost analyses of its different 
options for future training of diplomatic personnel, including an 
analysis of alternatives like using existing government or private 
sector facilities? If the answer is yes, please provide any and all 
materials indicating or discussing these cost analyses, including any 
internal correspondence discussing cost analyses, whether or not such 
analyses were ever completed.

    Answer. Since 2009, the General Services Administration (GSA) and 
the Department of State (DOS) have undertaken an extensive process in 
the search for a possible site for the proposed Foreign Affairs 
Security Training Center (FASTC). Over 70 sites have been evaluated for 
their potential to meet the needs of the security and law enforcement 
training for the State Department. Project costs, as well as 
socioeconomic and environmental impacts are just a few of the many 
variables evaluated as part of the site selection process.
    Currently, security and law enforcement training functions for the 
State Department are conducted in approximately 19 separate leased and 
contracted training facilities dispersed around the country. The fact 
that the existing training facilities are widely geographically 
separated creates difficulties in managing and coordinating activities. 
Additionally, because the existing training facilities are located in 
leased space or contracted facilities, the Bureau of Diplomatic 
Security (DS) must modify or adjust training to fit within the 
limitations of the facility. The lack of a dedicated training facility 
also results in scheduling inefficiencies, increased costs, and 
decreased productivity. DS security and law enforcement training 
courses often need to be postponed or canceled at the existing training 
facilities as they must compete for time and space with other Federal 
agencies' activities, including training requirements of the military. 
In addition, there are very few commercially available training centers 
to accommodate the specialized training needs of DS. The development of 
the FASTC would establish a consolidated hard-skills training center 
from which DS could efficiently conduct training for a wide array of 
participants, including the foreign affairs community and DS personnel 
to meet increased demand for well-trained personnel. Consolidation 
would also meet the directives of a June 2010 Presidential Memorandum, 
``Disposing of Unneeded Federal Real Estate,'' which directs U.S. 
Government agencies to eliminate lease arrangements that are not cost 
effective and to pursue consolidation of operations.
    As part of the Master Planning process, the Department of State and 
GSA developed a detailed cost estimate to construct FASTC at Fort 
Pickett. Additionally, a socioeconomic impact analysis was completed as 
part of the Draft Environmental Impact Statement. This analysis 
indicated a substantial economic benefit would be realized by Ft. 
Pickett/Nottoway County, and the surrounding area.
    Because of the ongoing, serious fiscal challenges facing the U.S. 
Government, including the order of sequestration, which went into 
effect on March 1, the administration asked GSA and the Department to 
perform additional due diligence to determine the best use of taxpayer 
funds. Accordingly, the Department reassessed the scope of the FASTC 
project; determining a smaller, hard-skills-only training platform at 
Fort Pickett was more fiscally prudent. Preliminary estimates indicate 
that project construction costs could be reduced by approximately $375 
million to $461 million. Additionally, the annual per-student cost 
could be reduced by over 50 percent compared to the cost of current 
hard-skills training methodologies.
    The Department is happy to provide a briefing on the FASTC Project, 
including cost estimates and cost benefit analysis.

    Question. What contingency plans were in place for Benghazi?

    Answer. As the independent Accountability Review Board on Benghazi 
noted in their report, following the initiation of the attack on the 
Special Mission Complex (SMC), the Diplomatic Security Agents 
immediately reacted according to their emergency plan. `` Following the 
SMC's emergency plan, Assistant Regional Security Officer (ARSO) 1 
entered Villa C to secure the Ambassador and the Information Management 
Officer (IMO) in the safe area and to retrieve his kit; ARSOs 2, 3, and 
4 moved to retrieve their kits, which were located in Villa B and the 
Tactical Operations Comman (TOC) . . . From Villa C, ARSO 4 ran to his 
sleeping quarters in Villa B to retrieve his kit, while ARSOs 2 and 3 
ran to the TOC, where ARSO 3 had last seen the Ambassador, and where 
ARSO 2's kit was located.'' (ARSO 2's sleeping quarters were in the 
TOC, making him the designated ``TOC Officer'' in their emergency react 
plan.) Additionally, the Regional Security Office was responsible for 
planning and conducting evacuation operations of Chief of Mission 
personnel in the event of a significant attack or substantial 
deterioration of local security. As such, the office had developed a 
written evacuation plan which depending on security conditions and 
specific threat information may have meant the evacuation of personnel 
from the compound to the Annex, to the east toward Tobruk or from the 
country entirely.
    Because of the tumultuous conditions and natural disasters faced 
periodically around the world, the Department has robust contingency 
planning at all posts; this planning involves the interagency, 
including the Department of Defense. Generally, when the Department is 
faced with evacuating post personnel, we seek to inform private U.S. 
citizens in that country, under a ``no double standard'' policy, and 
may urge our citizens to leave the country. Typically, U.S. Government 
employees and citizens will leave via commercial aircraft; on occasion 
we have asked airlines to add flights to their schedules. If commercial 
aircraft are not available or lack capacity, we have a process in place 
to charter aircraft. Our third option is military aircraft; DOD is 
always receptive to any Department requests.
    U.S. diplomatic missions maintain an Emergency Action Committee 
(EAC), which is comprised of members of the country team, including DOD 
elements present at post. The EAC is chaired by the Deputy Chief of 
Mission and validated by the Chief of Mission. The EAC also reviews 
security policies, such as post's travel policy, which may recommend 
particular modes of transport and prohibited times and/or locations of 
travel, and develops post's Emergency Action Plan (EAP). The EAC must 
review the capabilities and limitations that may impact post's ability 
to operate, to communicate with the private U.S. citizen community, and 
to carry out post plans in response to a crisis.
    In addition, the Crisis Management Training (CMT) division of 
State's Foreign Service Institute provides training in crisis 
management and emergency preparedness for over 100 overseas posts each 
year. The CMT division's mission is to help prepare U.S. Government 
employees and teams operating within the foreign affairs community to 
effectively respond before, during, and in the aftermath of all crises. 
The CMT division distributes guidance on lessons learned and best 
practices developed from past crises; provides example EAPs; and has 
developed distance learning courses for Crisis Management.

    Question. Were these contingency plans implemented when the 
Benghazi compound was attacked, and if so, what went wrong?

    Answer. Emergency react plans were implemented as the 
Accountability Review Board on Benghazi noted in their report: 
``Following the SMC's emergency plan, Assistant Regional Security 
Officer (ARSO) 1 entered Villa C to secure the Ambassador and the 
Information Management Officer (IMO) in the safe area and to retrieve 
his kit; ARSOs 2, 3, and 4 moved to retrieve their kits, which were 
located in Villa B and the Tactical Operations Command (TOC) . . . From 
Villa C, ARSO 4 ran to his sleeping quarters in Villa B to retrieve his 
kit, while ARSOs 2 and 3 ran to the TOC, where ARSO 3 had last seen the 
Ambassador, and where ARSO 2's kit was located.'' (ARSO 2's sleeping 
quarters were in the TOC, making him the designated ``TOC Officer'' in 
their emergency react plan.) The report further states, ``Around the 
same time, the temporary duty (TDY) Regional Security Officer (RSO) 
working in the TOC heard shots and an explosion. He then saw via 
security camera dozens of individuals, many armed, begin to enter the 
compound through the main entrance at the C1 gate. He hit the duck-and-
cover alarm and yelled a warning over the radio, and recalled no such 
warning from the February 17 or Blue Mountain Libya (BML) guards, who 
had already begun to flee to points south and east in the compound, 
toward the Villa B area. ARSOs 1 and 2 heard an attack warning from the 
BML guards passed on over the radio. The TDY RSO also alerted the Annex 
and Embassy Tripoli by cell phone.''
    The Regional Security Office in Benghazi was responsible for 
planning and conducting evacuation operations of Chief of Mission 
personnel in the event of a significant attack or substantial 
deterioration of local security. As such, the office had developed a 
written evacuation plan which depending on security conditions and 
specific threat information may have meant the evacuation of personnel 
from the Benghazi compound to the Annex, to the east toward Tobruk, 
Libya or from the country entirely. Additionally, if it was determined 
an attack warranted the full evacuation of the compound, RSO staff 
``will contact the Annex and notify them of the intention to 
relocate.''
    With respect to coordination with the Annex, the ARB weighed in by 
noting that ``just prior to receiving the TDY RSO's distress call 
shortly after 21:42 local time, the head of Annex security heard 
multiple explosions coming from the north in the direction of the SMC. 
The Annex security head immediately began to organize his team's 
departure and notified his superiors, who began to contact local 
security elements to request support. The Annex response team departed 
its compound in two vehicles at approximately 22:05 local time. The 
departure of the Annex team was not delayed by orders from superiors; 
the team leader decided on his own to depart the Annex compound once it 
was apparent, despite a brief delay to permit their continuing efforts, 
that rapid support from local security elements was not forthcoming.''
    The interagency also worked quickly and collaboratively to respond 
to the attack in Benghazi on September 11, and the ARB stated that 
``Washington-Tripoli-Benghazi communication, cooperation, and 
coordination on the night of the attacks were effective. . . .''
    The ARB further went on to state ``The interagency response was 
timely and appropriate, but there simply was not enough time given the 
speed of the attacks for armed U.S. military assets to have made a 
difference. Senior-level interagency discussions were underway soon 
after Washington received initial word of the attacks and continued 
through the night. The Board found no evidence of any undue delays in 
decisionmaking or denial of support from Washington or from the 
military combatant commanders. Quite the contrary: the safe evacuation 
of all U.S. Government personnel from Benghazi 12 hours after the 
initial attack and subsequently to Ramstein Air Force Base was the 
result of exceptional U.S. Government coordination and military 
response and helped save the lives of two severely wounded Americans.''
    The Department is working more closely to coordinate with the 
Department of Defense and other interagency colleagues as we adjust our 
posture in light of the new landscape we face today around the world. 
However, operating overseas presents unique challenges, and there is 
never a complete guarantee of safety--but in the face of ever-evolving 
threats, the Department strives to provide the most secure environment 
possible for the conduct of America's foreign policy.

    Question. Why would an independent review by the inspector general 
regarding the Department's contingency planning be of concern to the 
Department?

    Answer. The Department has no concerns with independent review by 
the inspector general of any of the Departments operations. The 
Department appreciates the recommendations of the Office of the 
Inspector General (OIG) in their audits and inspections of our various 
bureaus, offices, and programs. We take all reports and recommendations 
seriously, prioritize the OIG findings and address the corresponding 
recommendations accordingly.

    Question. Please explain the coordination between the State 
Department and Department of Defense in coordinating drills at U.S. 
overseas posts as it pertains to Fleet Antiterrorism Security Teams 
also known as FAST. How often are these drills conducted?

    Answer. A robust training program is essential for emergency 
preparedness. Providing post personnel with skill sets and essential 
information for emergency situations leads to an efficient and cohesive 
response to emergencies. The post's Emergency Action Committee is 
responsible for conducting drills, including their preparation, 
execution, and evaluation. Drills provide an opportunity to practice 
and evaluate the responses to emergencies. Emergency Action Committees 
are compromised of representatives of all U.S. Government agencies at 
post, including when applicable, Department of Defense representation.
    The Marine Security Guard (MSG) Detachment, led by the Regional 
Security Officer (RSO), is trained to respond to an array of 
contingencies and many of these are practiced in set drills. These 
drills include: internal defense, fire, bomb, mass casuality, emergency 
destruction, and intruder. Drills are conducted on an established 
schedule and must be reported to the Department per established policy.
    Coordination of training with other United States Marine Corps 
(USMC) elements such as USMC Fleet Antiterrorism Security Team (FAST) 
or USMC Marine Expeditionary Unit (MEU) are facilitated by the Bureau 
of Diplomatic Security (DS) routinely in training scenarios in the 
continental United States (CONUS) and occasionally in theater. In 
CONUS, DS Special Agents with overseas experience are called upon to 
brief MEU personnel prior to deployment. DS Special Agents are involved 
in a yearly contingency exercise with the Quantico-based USMC 
Expeditionary Warfare School and DS Special Agents engage with the MEUs 
as role players in table top exercises. Forward deployed USMC elements 
are also provided exposure to DS and embassy security contingency 
planning through geographic command theater exercises. A DS Special 
Agent (LNO) is assigned to each geographic command and is involved in 
joint-planning and exercise of contingency plans. Most frequently, DS 
LNOs are involved in rehearsal of concept and broader theater exercises 
that target the prospect of noncombatant evacuation planning.
    When FAST has been deployed to U.S. diplomatic facilities, it falls 
under the operational control of the Chief of Mission through the RSO. 
When the RSO conducts drills with the MSG Detachment and with mission 
staff, the RSO familiarizes the FAST with the drill scenarios and 
enlists the FAST participation in some level or aspect of the mission 
drill.

    Question. What is the step-by-step process by which FAST assistance 
is requested, approved, deployed?

    Answer. The Department of State requests military assistance 
through official correspondence between the Executive Secretaries of 
the Department of State and Department of Defense. When requesting such 
assistance, the Department of State defers to the Department of Defense 
to determine the appropriate type and level of assistance necessary. 
The Department of State refers the Senator to the Department of Defense 
for information in the decisionmaking process to approve or deploy 
FASTs.

    Question. How many current Bureau of Diplomatic Security (DS) 
personnel have criminal records?

    Answer. DS agents undergo a background investigation and have been 
determined suitable for the position and issued a security clearance 
prior to employment. In addition, they go through clearance 
reinvestigations every 5 years. Federal security clearances are 
governed by Executive Order 12968, and adjudicated under the 
``Government-wide Adjudicative Guidelines for Determining Eligibility 
for Access to Classified Information.'' Adjudicative Guideline J-
Criminal Conduct is one of the 13 guidelines used in making an access 
determination. That guideline provides that security concerns may be 
raised, and a person may be disqualified from holding a security 
clearance, for a single serious crime or multiple lesser offenses. The 
guideline also lists conditions that could mitigate security concerns:
          (a) So much time has elapsed since the criminal behavior 
        occurred, or it 
        occurred under such unusual circumstances that it is unlikely 
        to recur or does not cast doubt on the individual's 
        reliability, trustworthiness, or good judgment;
          (b) The person was pressured or coerced into committing the 
        act and those pressures are no longer present in the person's 
        life;
          (c) Evidence that the person did not commit the offense; and
          (d) There is evidence of successful rehabilitation; including 
        but not limited to the passage of time without recurrence of 
        criminal activity, remorse or restitution, job training or 
        higher education, good employment record, or constructive 
        community involvement.
    These considerations, and others, are taken into account when 
determining whether a prospective DS agent with a criminal record 
should receive a clearance, and whether a current agent should maintain 
their clearance if an offense is committed. Each case is judged on its 
own merits. It is important to note that an offense that might result 
in a criminal record could include, but is not limited to, jaywalking, 
public intoxication, shop lifting, and driving under the influence.
    We can determine that since entering the Department, 46 of the 
1,930 DS agents (less than 2 percent of agents) have been arrested at 
some point over the course of their career. The criminal records for 
these individuals are mostly alcohol or domestic incident related. If a 
DS agent commits a misdemeanor offense, the Department determines the 
nature of the security concern and whether it can be mitigated. An 
agent who is convicted of a felony will lose their security clearance, 
and disciplinary action will be taken to remove them from their 
position. Furthermore, all Department employees, including those in DS, 
must immediately report information of a potentially derogatory nature, 
including adverse involvement with law enforcement agencies, to the 
Director, Office of Personnel Security and Suitability. Depending on 
the nature of that involvement, it could lead to the suspension and 
revocation of the employee's security clearance.

    Question. How many current DS personnel are not permitted to engage 
in sensitive assignments because of their prior criminal records or 
involvement?

    Answer. Currently, 3 of the 1,930 Bureau of Diplomatic Security 
(DS) Special Agents have been removed from law enforcement duties due 
to criminal charges or pending charges, or nonfelony convictions during 
their employment with DS.

    Question. How many current DS personnel have been removed from 
sensitive assignments or other duties because of misconduct or other 
inappropriate workplace behaviors?

    Answer. Currently, 19 of the 1,930 Bureau of Diplomatic Security 
(DS) Special Agents have been removed from sensitive assignments or 
other duties because of misconduct or other inappropriate workplace 
behaviors.

    Question. How many DS personnel have been terminated or relieved of 
duties 
because of post-hire revelations of prior criminal records or 
involvement?

    Answer. We have reviewed records for the last 5 years and find that 
no DS personnel have been terminated or relieved of duties based on 
prior criminal records or involvement.

    Question. Are individuals with criminal records legally eligible to 
work for DS?

    Answer. In most circumstances, individuals with criminal records 
are not automatically barred from working for the Bureau of Diplomatic 
Security. There are a number of ways, however, in which a criminal 
record may render an individual ineligible to serve as a Diplomatic 
Security Special Agent.
    The existence of a criminal record may result in the denial of a 
federal security clearance, which is a prerequisite for a variety of 
positions with the Federal Government, including DS Special Agents, who 
are required at hiring to be eligible to be granted access to Top 
Secret/Sensitive Compartmented information (TS/SCI). DS Special Agents 
also are sworn Federal Law enforcement officers and must be eligible to 
possess a firearm. The Lautenberg amendment to the Gun Control Act, 18 
U.S.C. Sec. 922, states a person convicted of a felony or misdemeanor 
crime of domestic violence may not possess a firearm, which would also 
bar employment as a Diplomatic Security Special Agent.
    In addition, candidates for DS Special Agent positions must pass a 
suitability review. DS works under the direction of the Bureau of Human 
Resources Office of Recruitment, Examinations, and Employment (HR/REE) 
in the recruitment and assessment of DS Special Agents.
    If agent candidates pass all phases of pre-employment screening/
testing (application prescreening, written and oral assessments), they 
are given a conditional offer of employment and provided with the 
security and medical clearance paperwork. Once clearances are obtained, 
candidates will undergo the final suitability review process. 
Candidates must pass the final suitability review before being placed 
on the hiring register and assigned an entrance on duty date.
    The final suitability panel consists of two members--an examiner 
from HR/REE and a former Special Agent subject-matter-expert from DS. 
Both panel members review the reports of investigation prepared by the 
Office of Personnel Security and Suitability (DS/SI/PSS) and make a 
suitability determination, based on the Final Review Panel (FRP) 
criteria. If the panel members are not in agreement, the HR/REE 
Director assigns a third individual to serve as the tie breaker. If the 
candidate fails the final suitability review, their candidacy is 
terminated.
    Terminated candidates may appeal a finding of unsuitability. 
Appeals must be submitted in writing within 60 days of receiving a 
denial letter, or the candidate must request an extension in writing 
from the HR/REE Director. As outlined in the FRP denial letter, an 
appeal must provide new or additional information that specifically 
addresses the grounds for denial as laid out in the letter, which 
clearly indicates that the panel's decision was based on inaccurate 
information, and thus was in error. An appeals panel consisting of two 
assessors with no previous contact with the case will adjudicate 
appeals.
    In adjudicating the case, the panel is limited in its review to the 
reasons for the initial denial of suitability cited in the letter to 
the candidate and must base its decision only on the new information 
provided by the candidate in the appeal. The chair of the panel will 
draft a report of findings, and the approval or denial letter for the 
HR/REE Director's signature. If the panel fails to reach consensus, the 
HR/REE Director will make the final determination.
    In assessing candidates' suitability, the panel applies the 
Department's Standards for Appointment and Continued Suitability, which 
are set out in the Foreign Affairs Manual (FAM). The FAM 4130 states 
that ``criminal, dishonest, or disgraceful conduct'' may constitute 
grounds for disqualifying an applicant based on suitability. During the 
suitability review, the panel considers such factors as criminal 
history, past drug or alcohol abuse, and misconduct in prior 
employment. Although a past criminal violation does not automatically 
disqualify a person for service, it would be a strong indicator against 
employment and would be scrutinized intently, considering the nature of 
the offense, the age when it occurred, and any extenuating 
circumstances. Because DS Special Agents serve as law enforcement 
officers, they are held to a higher standard than other applicants and 
their suitability review is more stringent.

    Question. Is DS functionally a federal law enforcement agency?

    Answer. Yes. To counter global threats, the Office of the Chief 
Special Agent, the forerunner of diplomatic security, was formed in 
1916. It was not until 1985, in the aftermath of the Beirut bombings, 
that DS became a Bureau within the State Department. Diplomatic 
Security (DS) Special Agents are sworn federal law enforcement officers 
who are responsible for the security of U.S. Government personnel, 
property, and sensitive information throughout the world. DS Special 
Agents are also responsible for the protection of the Secretary of 
State, certain foreign dignitaries visiting the United States, and 
others as designated by the Secretary of State. Major activities 
include protective services, management of security programs for 
Foreign Service posts, criminal investigations, and background 
investigations.
    The Diplomatic Security Service operates under several statutory 
authorities, including: The Omnibus Diplomatic Security Act, signed in 
1986, which is the basic authorizing legislation. Under this act, the 
Secretary of State has responsibility to develop policies and programs 
for the protection of all U.S. Government personnel, including military 
personnel who fall under Chief of Mission authority, on official duty 
abroad; security at U.S. diplomatic missions abroad; and security at 
State Department facilities in the United States.
    In addition, 22 U.S.C. Sec. 2709 provides Special Agents of the 
Diplomatic Security Service with the authority to conduct criminal 
investigations concerning passport or visa fraud. DS agents have the 
statutory authority to protect visiting foreign dignitaries, the 
Secretary of State, and other official representatives of the U.S. 
Government as directed. The statute also gives DS agents the authority 
to carry firearms and to obtain and execute federal search and arrest 
warrants.
    The National Intelligence Reform Act gives DS the lead authority in 
the United States for developing a plan to stop U.S. visa and passport 
fraud worldwide. In April 2005, a new law was signed by President 
George W. Bush, which expanded legal authorities for DS agents. DS 
Agents are also authorized to make arrests without a warrant for any 
federal offense committed in their presence or for probable cause. 
These expanded authorities are a tremendous benefit to DS agents in 
that they immediately enhance DS's effectiveness in fulfilling its 
critical law enforcement role.

    Question. Have any State Department personnel ever instructed any 
DS personnel or other State Department personnel to make exceptions to 
otherwise applicable hiring rules and regulations, or otherwise take 
any actions outside the normal course of their duties, with respect to 
the hiring of an individual with a criminal record to work in DS? If 
the answer is yes, please provide their names and all correspondence 
and documents related to such requests.

    Answer. No; there is no record that any State Department personnel 
have ever instructed any DS personnel or other State Department 
personnel to make exceptions to otherwise applicable hiring rules and 
regulations, or otherwise take any actions outside the normal course of 
their duties, with respect to hiring an individual with a criminal 
record to work in DS.

    Question. Please provide a detailed analysis comparing the benefits 
State Department personnel would receive under S. 980, as introduced 
(e.g., death gratuity, supplemental life insurance, survivors 
education, intern gratuities, and retroactive payments) to comparable 
benefits for:
          (a) Current FSO benefits;
          (b) Benefits for DOD service members;
          (c) Benefits for federal employees in the intelligence 
        community serving overseas; and
          (d) Benefits for other non-FSO federal civilian employees.
    Please include in this analysis the amounts paid into any such 
benefit programs by each category of beneficiaries.

    Answer (a). The death gratuity and associated benefits that are 
payable to the designated beneficiaries of a Department of State 
employee who is killed in the line of duty are highly variable, and 
depend largely on such factors as the employee's current salary, total 
years of creditable service, the total life insurance coverage 
selected, the number of surviving dependents, and how long the 
survivors live to collect benefits. The various benefits and options 
available can be found in the attached tab regarding compensation 
available to families of Foreign Service and Civil Service Employees.

    Answer (b). As of July 2012, our understanding of the broad 
outlines of certain relevant Department of Defense benefits to service 
members is as follows:

Death Gratuity: $100,000 or one year's salary, whichever is greater
Burial Costs: up to $8,800
Insurance: $400,000
Educational Benefit: $936 per month for full-time attendance (per 
            spouse/child) [up to 45 months]
Children (per child): $486 per month (up to age 22 if still in school)
Social Security Benefits: [per SSA entitlement]
Pension: average of 3 high salary x 75% x 55%

    We refer you to the Department of Defense for more detailed 
information.

    Answer (c). The Department of State does not possess this 
information. We refer you to the individual agencies, which would be 
better positioned to provide the information.

    Answer (d). The chart provided in the attached tab also discusses 
the benefits available to Civil Service employees, regardless of agency 
(only Title 22 authorizations are limited to the Foreign Service). We 
refer you to individual agencies for additional information.

ATTACHMENT:

  COMPENSATION THAT MAY BE PROVIDED TO ELIGIBLE FAMILIES OF DECEASED U.S. PERSONNEL: U.S. FOREIGN SERVICE (FS)
  EMPLOYEES, CIVIL SERVICE (CS) EMPLOYEES, AND FOR THOSE EMPLOYEES KILLED IN THE LINEOF DUTY AND/OR A TERRORIST
                                                    INCIDENT
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
FECA5 U.S.C 8133-8137............  Central benefit:    Reductions:         Length of survivor  Funeral or burial
                                    Surviving spouse    Monthly survivor    benefits: Tax-      expenses:
                                    receives monthly--  benefits are        free spousal        Contingent upon
                                    50% of employee's   reduced if:         monthly benefit     written approval
                                    salary; if          employee was        is paid for life    by DOL. Usually,
                                    dependent           covered under       or until            several months
                                    children, 45% of    FERS or FSPS and    remarriage if       are required for
                                    salary plus         survivors receive   before age 55.      processing. DOL
                                    additional 15%      SS benefits based                       pays up to $800
                                    for each child up   on deceased's                           to personal
                                    to a total of 75%   Federal                                 representative.
                                    of salary.          employment.                             DOL pays up to
                                                                                                $200 to personal
                                                                                                representative.
----------------------------------------------------------------------------------------------------------------
Retirement benefits..............  Survivor annuity:   Election choice:    FECA benefit: Most
                                    Paid based on       If FECA benefit     survivors choose
                                    applicable          is chosen over      FECA benefits
                                    retirement          retirement          because FECA pays
                                    system: FERS,       annuity,            a higher amount
                                    CSRS, FSRDS,        survivors may       and are tax
                                    FSPS. Not payable   receive a lump      exempt.
                                    if FECA payments    sum payment of
                                    are made.           the deceased's
                                                        contributions to
                                                        relevant
                                                        retirement fund.
----------------------------------------------------------------------------------------------------------------
Social Security.                   Survivor benefits:  Benefit Amount:     Benefit condition:
                                    Payable to          Lump sum of $255    Amount depends on
                                    qualifying          is payable to       SS earnings and
                                    surviving spouses   qualifying          number of
                                    and dependent       surviving spouse.   survivors
                                    children.           If no qualifying    eligible for
                                    Dependent parents   spouse, lump sum    benefits.
                                    and former          is paid to
                                    spouses may         children eligible
                                    qualify.            for benefits.
                                                        Otherwise no lump
                                                        sum is payable.
----------------------------------------------------------------------------------------------------------------
Title VI, Section 651 of Public    Death Gratuity      Reduction: Payment  Benefit reality:
 Law 104-208 (The Omnibus           (for funeral and    must be reduced     Since FECA
 Consolidated Appropriations Act    burial expenses):   by amount of DOL    typically pays
 of 1996).                          Up to $10,000       payment toward      out $1,000 for
                                    payable to          funeral and         funeral and
                                    personal            administrative      administrative
                                    representative of   expenses (up to     expenses, State's
                                    deceased            $1,000).            death gratuity
                                    employee.                               payment is
                                                                            usually $9,000
                                                                            and is taxable.
                                                                            FECA provision
                                                                            (*8102a) cited
                                                                            below effective 1/
                                                                            2008 increased
                                                                            the death
                                                                            gratuity payment
                                                                            up to a maximum
                                                                            of $100,000
                                                                            offset by other
                                                                            death gratuities
                                                                            paid out.
----------------------------------------------------------------------------------------------------------------
*FECA 8102a (Section 1105 of       Death gratuity:     Benefit Amount:     Beneficiary
 Public Law 110-181) January 2009.  The USG pays a      The death           Reality and Form:
                                    death gratuity of   gratuity payable    For an employee
                                    up to $100,000 to   under this          who has no
                                    or for the          section shall be    surviving spouse
                                    survivor            reduced by the      or child and is
                                    prescribed by       amount of any       eligible to
                                    subsection (d)      death gratuity      receive the death
                                    immediately upon    provided under      gratuity, the
                                    receiving           section 413 of      employee may
                                    official            the Foreign         designate any one
                                    notification of     Service Act of      or more of his/
                                    the death of an     1980, section       her parents or
                                    employee who dies   1603 of the         brothers or
                                    of injuries         Emergency           sisters to
                                    incurred in         Supplemental        receive specific
                                    connection with     Appropriations      shares of the
                                    the employee's      Act for Defense,    gratuity.
                                    service with an     the Global War on
                                    Armed Force in a    Terror, and
                                    contingency         Hurricane
                                    operation.          Recovery, 2006
                                                        [unclassified],
                                                        or any other law
                                                        of the United
                                                        States based on
                                                        the same death.
----------------------------------------------------------------------------------------------------------------
Section 413 of Foreign Service     Death gratuity:     Recipient:          Condition: Death    Complications:
 Act, 22 U.S.C. 3973.               Payment equal to    Surviving           must be first       Processing by
                                    one year's salary   dependents of       accepted by DOL,    DOL may take
                                    of the employee     Federal employee    in writing, with    several months.
                                    at the time of      who die as a        qualifying FECA     Complications
                                    death. Surviving    result of           provision noted,    should be
                                    dependents of       injuries            before State can    expected if
                                    Federal employee    sustained in the    authorize           terrorism or
                                    who dies as a       performance of      payment.            foul play is
                                    result of           duty abroad.                            involved. Nexus
                                    injuries                                                    between death
                                    sustained in the                                            and employment
                                    performance of                                              must be
                                    duty abroad.                                                established.
----------------------------------------------------------------------------------------------------------------
Victims of Terrorism Compensation  Benefit: Payment    Reduction: Payment  Benefit Reality:    Delegated
 Act, 5 U.S.C 5570 and 22 CFR 192.  provided if         must be reduced     Because of other    Authority:
                                    President           by any other        payment             Secretary of
                                    (through DOJ-FBI)   amount payable by   authorized above,   State, in
                                    determines that     USG in connection   including FECA      consultation
                                    death was caused    with death or       and Section 413     with the
                                    by hostile action   disability.         of FS Act           Secretary of
                                    and resulted from                       authorizing 1-      Labor.
                                    individual's                            year salary, this   Department
                                    relationship with                       benefit is rarely   regulation
                                    the Government.                         paid because of     provides death
                                                                            the offset          benefit payment
                                                                            provision of the    for either an
                                                                            law.                employee or a
                                                                                                family member of
                                                                                                an employee is
                                                                                                equal to 1
                                                                                                year's salary of
                                                                                                the principal at
                                                                                                the time of
                                                                                                death.
----------------------------------------------------------------------------------------------------------------
Income Tax Relief 26 U.S.C. 692..  Federal Income
                                    Tax: Not
                                    applicable, if
                                    death resulted
                                    from injury
                                    incurred outside
                                    the U.S. in a
                                    terrorist or
                                    military action
                                    for the tax year
                                    of the death and
                                    any prior taxable
                                    year in the
                                    period beginning
                                    with the last
                                    taxable year
                                    ending before the
                                    year in which the
                                    injury was
                                    incurred.
----------------------------------------------------------------------------------------------------------------
Life Insurance: Federal Employees  Payment: Basic      Optional Insurance  Accidental Death:   Beneficiary:
 Group Life Insurance (FEGLI).      Life Insurance      benefits:           Pays additional     Unless employee
                                    equal to an         Employees may       benefits for        designates a
                                    employee's rate     also be entitled    those who elected   specific
                                    of annual basic     to additional       Basic Life          beneficiary, the
                                    pay (rounded to     optional coverage   Insurance and       benefit is paid
                                    the next $1,000)    payment, if         Option A.           according to the
                                    plus $2,000, or     employee elected                        order of
                                    $10,000,            it before death                         precedence
                                    whichever is        and paid the full                       mandated by law.
                                    greater. USG        cost of Optional                        Proceeds of
                                    Payment: \1/3\ of   Insurance.                              FEGLI policies
                                    the cost of Basic                                           paid to
                                    Insurance.                                                  designated
                                                                                                beneficiaries
                                                                                                are not taxable
                                                                                                as income to the
                                                                                                beneficiary.
----------------------------------------------------------------------------------------------------------------
Federal Employees Health Benefits  Eligibility:        Condition: At
 Program (FEHBP).                   Eligible            least one family
                                    survivors may       member is
                                    continue            entitled to a
                                    enrollment if       monthly annuity
                                    deceased employee   as the survivor
                                    was enrolled for    of the deceased
                                    self and family     employee.
                                    at the time of
                                    death.
----------------------------------------------------------------------------------------------------------------
Thrift Savings Plan (TSP)........  Payment:            Federal Tax: To
                                    Employee's TSP      postpone paying
                                    accounts are        federal tax, all
                                    distributed         or any part of
                                    according to the    the payment may
                                    employee's          be made to an
                                    Designation of      IRA.
                                    Beneficiary form.
----------------------------------------------------------------------------------------------------------------
Unpaid Compensation (Final pay     Payment:
 and unused Annual Leave).          Designated
                                    survivor(s) of
                                    USG employee who
                                    are killed may
                                    receive lump sum-
                                    payment covering
                                    final pay and
                                    unused annual
                                    leave from the
                                    employee's
                                    agency.
----------------------------------------------------------------------------------------------------------------
Emergencies in the Diplomatic and  Payment: Section 4  Past Practice: DOS  Collective          Payments to
 Consular Services Authority.       of the Department   used this           Expenses: DOS       families: DOS
                                    of State Basic      authority to make   paid for            used this
                                    Authorities Act,    expenditures        collective          authority for
                                    22 U.S.C. 2671,     related to the      expenses on         airfare, local
                                    provides that the   Nairobi bombing.    behalf of all       transportation,
                                    Secretary is                            American victims    lodging, and
                                    authorized to                           (ie., costs of      other
                                    make expenditures                       arrival ceremony    miscellaneous
                                    for ``unforeseen                        of surviving        expenses
                                    emergencies                             family members,     associated with
                                    arising in the                          meeting for         the arrival
                                    diplomatic and                          families, and 1-    ceremony,
                                    consular service.                       year anniversary    funeral
                                                                            commemoration       arrangements,
                                                                            ceremonies).        and anniversary
                                                                                                commemorations.
----------------------------------------------------------------------------------------------------------------
Revised November 2011

                                  <all>

</pre></body></html>
